<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
    AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                   ___________________________________

      SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES

                SANFORD D. BISHOP, Jr., Georgia, Chairman

  ROSA L. DeLAURO, Connecticut		JEFF FORTENBERRY, Nebraska
  CHELLIE PINGREE, Maine		ROBERT B. ADHERHOLT, Alabama
  MARK POCAN, Wisconsin			ANDY HARRIS, Maryland
  BARBARA LEE, California		JOHN R. MOOLENAAR, Michigan
  BETTY McCOLLUM, Minnesota
  HENRY CUELLAR, Texas

  

NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

              Martha Foley, Diem-Linh Jones, Joseph Layman,
             Justin Masucci, Perry Yates, and Randall Staples
                            Subcommittee Staff

                   ___________________________________

                                  PART 3

                                                                   Page
International Food Assistance Programs at USDA and 
 USAID.......................                                         1
Food and Nutrition Service: Policy and Program
 Overview........................                                   207



                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   ___________________________________

          Printed for the use of the Committee on Appropriations


                    U.S. GOVERNMENT PUBLISHING OFFICE

  39-606                   WASHINGTON : 2020




                      COMMITTEE ON APPROPRIATIONS


                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio			    KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana		    HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York		    ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut		    MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina	    JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California	    KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia	    TOM COLE, Oklahoma
  BARBARA LEE, California		    MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota		    TOM GRAVES, Georgia
  TIM RYAN, Ohio			    STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland	    JEFF FORTENBERRY, Nebraska
  DEBBIE WASSERMAN SCHULTZ, Florida	    CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas			    JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine		    DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois		    ANDY HARRIS, Maryland
  DEREK KILMER, Washington		    MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania		    MARK E. AMODEI, Nevada
  GRACE MENG, New York			    CHRIS STEWART, Utah
  MARK POCAN, Wisconsin			    STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts	    DAN NEWHOUSE, Washington
  PETE AGUILAR, California		    JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida			    JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois		    WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

  
                 Shalanda Young, Clerk and Staff Director

                                   (ii)


   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2020

                              ----------                              

                                     Wednesday, September 25, 2019.

        INTERNATIONAL FOOD ASSISTANCE PROGRAMS AT USDA AND USAID

                               WITNESSES

TREY HICKS, DIRECTOR, OFFICE OF FOOD FOR PEACE, U.S. AGENCY FOR 
    INTERNATIONAL DEVELOPMENT
KEN ISLEY, ADMINISTRATOR, FOREIGN AGRICULTURAL SERVICE, U.S. DEPARTMENT
    OF AGRICULTURE
    Mr. Bishop. The subcommittee will come to order.
    Let me say good morning and welcome to today's hearing. 
This morning, we are examining the international food 
assistance programs that are funded by this subcommittee. 
Within USDA, food assistance and agricultural development are 
provided by the McGovern-Dole International Food for Education 
and Child Nutrition Program and the Food for Progress program. 
Within USAID, food assistance funding is provided by the Food 
for Peace title II program.
    We have two witnesses to help us understand all the aspects 
of these programs, from the 30,000-foot view of strategic 
planning to the on-the-ground realities of project execution.
    I would like to welcome Ken Isley, the Administrator of the 
Foreign Agriculture Service at USDA, and Trey Hicks, Director 
of the Office of Food for Peace at USAID. I want to welcome 
both of you to our subcommittee. These programs under each of 
your purview are multifaceted, and they cover much more than 
just food assistance and agricultural development. We look 
forward to hearing about what you do, how you do it, and how we 
can help you to achieve your future goals.
    I thank both of you for being here. I look forward to a 
robust discussion about these very, very important programs.
    Now, before we begin, I recognize that we are here this 
morning to discuss the operations and the implementation of 
USDA and USAID international food assistance programs, but I 
would be remiss if I did not bring up the lack of support for 
these programs from the current administration.
    As I have said before, the administration's proposed 
elimination of these programs is shortsighted, and it ignores 
their value as an essential tool for our country's diplomacy. 
That is why the House mark rejects the proposed elimination and 
instead funds McGovern-Dole and Food for Peace at $2 billion, 
well above last year's enacted level.
    Now, moving on, while the various goals for each of these 
programs may differ, their overall mission is the same: 
alleviate hunger, improve food security around the world. It is 
my hope that today's discussion will help shed light on how 
these programs achieve their missions, what are the various 
challenges they face, and how you measure success.
    Additionally, while, today, we are discussing food 
assistance and these programs, they are not the only tools the 
United States has at its disposal for combating food insecurity 
around the globe. I am also interested in how these programs 
fit within a broader national strategy for international food 
assistance.
    Our farmers, our ranchers, our producers don't just feed 
Americans. We help feed the world. The commodities that we send 
abroad are a gift from the American people, and it is our duty 
to ensure this generosity is treated with great care to make 
the most positive impact around the world that we can possibly 
make.
    I want to thank our witnesses for being with us today. I 
look forward to today's discussion.
    Now let me ask our distinguished ranking member, Mr. 
Fortenberry, if he has any opening remarks.
    Or should I just recognize him for some opening remarks?
    Mr. Fortenberry. The answer is yes, Mr. Chairman.
    Thank you, Mr. Chairman, for recognizing me and for holding 
this important hearing.
    The chairman and I discussed the possibility of bringing in 
the directors of the multiple food assistance programs and 
policies that we have across our government, and so I think I 
am grateful to you all for coming today but really especially 
grateful for the chairman's leadership in this regard.
    I don't think this is a well-understood space by the 
American people, and yet it is essential to well-being 
throughout the world. So, again, thank you for coming, your 
leadership.
    I think it is important at the start of the hearing to 
point out the United States does lead the world, both in terms 
of generosity and outreach. That includes agricultural and 
humanitarian assistance. I think it is not only necessary to 
point that out because it compels us to examine how effective 
these programs are but also the underlying premise.
    Despite any temporary disagreement with another nation or 
trade dispute, countries all around the world turn to us 
because of our leadership and capacity and generosity. 
America's ability to help other people in need and the 
generosity of the people that we serve are really a hallmark of 
who we are. It marks the character of us as a Nation.
    Regarding international food assistance, many of us have 
worked in this space for a very long time and we often hear 
that this is actually 1 percent, less than 1 percent of the 
overall Federal budget, but for our Appropriations Committee, 
it represents 8 percent. So it is a significant portion of what 
we are dealing with and, therefore, a priority.
    So, as a part of our oversight of these programs, we have 
to do two things at once: Look at the management of the 
programs, but also--and this is very important--how do we also 
think innovatively? How do we attack the sources of structural 
poverty and overcome misery in the world so that we can create 
stability in other countries and even the possibility of 
flourishing for communities and other persons?
    It is about possibilities, the possibilities of innovation 
and new approaches, that we also have to have a marked focus on 
as a part of our oversight efforts.
    This hearing is a great way for us to step back and provide 
some reflection on just what the purpose of these programs are, 
how successful they are, but also what are the metrics? How do 
we measure outcomes to meet these fundamental goals? Also, how 
are they reconcilable with other programs? Are we unnecessarily 
duplicating, why one program is embedded in one agency versus 
another and how those agencies collaborate?
    Our ultimate goal is to, again, create the conditions in 
which persons can have lives filled with opportunity and hope 
and that we can do our part to build more just and good 
societies because, again, that is who we are. That is a 
humanitarian impulse, but it is also critical to international 
stability and, therefore, our own security.
    I believe this vision and goal should continue to be a part 
of the evolvement--evolving of our entire foreign policy and 
defense policy in Congress. They are inextricably intertwined.
    With that, Mr. Chairman, thank you very much again for 
holding this committee.
    And I yield back.
    Mr. Bishop. Let me now recognize our distinguished guests 
for brief oral statements, and then we will proceed with 
questions.
    Without objection, gentlemen, your entire written 
testimonies will be included in the record, and you may proceed 
in any order which you may decide to.
    Mr. Isley. Thank you, Mr. Chairman, and good morning, Mr. 
Chairman and members of the subcommittee.
    I appreciate the opportunity to discuss the international 
food assistance programs implemented by USDA. Before I address 
this topic, however, I first want to thank the subcommittee for 
your continued support of my agency, the Foreign Agricultural 
Service. USDA administers three international food assistance 
programs: the Food for Progress Program, the McGovern-Dole 
Program, and a subset of that being the Local and Regional Food 
Aid Procurement Program.
    Food for Progress has two principal objectives: to improve 
agricultural productivity in developing countries and emerging 
democracies without negatively impacting the export of U.S. 
commodities and to expand trade in agricultural products. 
Donated U.S. commodities are shipped to recipient countries and 
sold on the local market. The proceeds are used to support 
agricultural and infrastructure capacity-building projects, 
project implementers, including Private Voluntary Organizations 
(POVs), foreign governments, universities, and 
intergovernmental organizations.
    At the end of fiscal year 2018, there were 52 active Food 
for Progress projects valued at over $1 billion. For fiscal 
year 2019, USDA announced preliminary allocations for seven 
multiyear projects in Africa, Asia, and Central America, 
totaling more than $140 million. As an example, a Food for 
Progress project in East Timor helps support the export of 
local crops and creates economic opportunities for subsistence 
farmers. The project's first harvest of fair-trade certified 
coffee will commence in 2019 with more than 19 tons headed for 
international buyers, including many U.S. importers.
    McGovern-Dole provides school meals and nutrition programs 
for school-aged children, women, and infants in countries with 
high food insecurity. Projects are implemented by PVOs and 
international organizations. The program's statutory objectives 
include reducing hunger, improving literacy and primary 
education, and carrying out maternal, infant, and child 
nutrition programs.
    McGovern-Dole projects are designed to graduate from USDA 
assistance. For fiscal year 2019, USDA announced preliminary 
funding allocations for nine proposals in Africa, Asia, Central 
America, and the Caribbean valued over $190 million. McGovern-
Dole projects reached over 4.3 million beneficiaries in fiscal 
year 2018. As an example, in 2018, Kenya became the first 
country in Africa to transition all schools previously 
supported by McGovern-Dole to a government-supported national 
school meal program.
    First authorized in the 2014 farm bill, the Local and 
Regional Procurement Program (LRP) provides a complimentary 
mechanism for delivering international food assistance. 
Including local commodities, such as fruits and vegetables, 
improves the taste of nutritious meals, strengthens supply 
chains, and boosts local support for sustainability.
    In fiscal year 2019, USDA LRP projects are estimated to 
reach more than 105,000 children in McGovern-Dole schools. As 
an example, a recent LRP project incorporated sweet potatoes 
into school meals in Mozambique.
    From selecting countries and priorities to reviewing 
proposals, monitoring agreements, evaluating project 
performance, and reporting progress, Foreign Agricultural 
Service (FAS) staff coordinate with colleagues across USDA and 
the U.S. Government, particularly USAID, as well as with 
donors, ag industry stakeholders, implementing partners, U.S. 
land grant universities, and recipients.
    Collaboration does not just occur in Washington, D.C. We 
also work closely with our overseas posts to select priority 
countries and themes for food assistance and to implement the 
programs.
    And, last, collecting evidence on effectiveness of food aid 
is an important part of the administration of these programs. 
In recent years, FAS has strengthened our monitoring and 
evaluation systems. We adhere to a results-oriented management 
approach. We invest in independent research of our learning 
agendas, which serve as five-year strategies used to prioritize 
areas to improve the programs. To share our research and to 
fulfill our strong commitment to transparency, we publicly post 
evaluations of food aid projects implemented by FAS on USAID's 
public portal for monitoring and evaluation.
    Thank you, again, for the opportunity to testify, and I 
look forward to addressing your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T9606A.001
    
    [GRAPHIC] [TIFF OMITTED] T9606A.002
    
    [GRAPHIC] [TIFF OMITTED] T9606A.003
    
    [GRAPHIC] [TIFF OMITTED] T9606A.004
    
    [GRAPHIC] [TIFF OMITTED] T9606A.005
    
    [GRAPHIC] [TIFF OMITTED] T9606A.006
    
    [GRAPHIC] [TIFF OMITTED] T9606A.007
    
    Mr. Bishop. Thank you, Mr. Isley.
    Mr. Hicks.
    Mr. Hicks. Chairman Bishop, Ranking Member Fortenberry, 
other members of the subcommittee, thank you for the invitation 
to speak with you today about international food assistance 
programs.
    My name is Trey Hicks, and I am the Director of the Office 
of Food for Peace, the world's largest provider of 
international food assistance. Last year, we reached 76 million 
people in 59 countries with lifesaving aid. We do this because 
alleviating global hunger represents the best of America's 
generosity and goodwill. It is also crucial to our national 
security. Where hunger persists, instability grows. Our efforts 
help build a more stable world and ensure people have the 
chance to lead more productive lives.
    More than 80 percent of our programs respond to 
humanitarian crises by providing food assistance to people 
affected by conflict and natural disasters. We also have 
multiyear development programs that address the root causes of 
hunger, such as drought, to build resilience and food security 
among vulnerable populations. This helps people, equip people 
with the knowledge and tools to feed themselves and reduce the 
need for future international assistance.
    There are four main ways that the U.S.A. provides life-
saving food assistance: number one, food growing in the United 
States through title II; number two, food grown locally or 
regionally; number 3, through food vouchers; and, finally, 
number four, through money that helps families buy food on 
local markets.
    Many times and often, there is a combination of these 
legalities that we use for each and every response based on the 
contexts unique to those responses. For today's testimony, I 
will focus on U.S. in-kind food assistance, food bought with 
title II funds and authorized in the Food for Peace Act, which 
this subcommittee has jurisdiction over. The other modalities 
are primarily provided through the International Disaster 
Assistance or development assistance funds authorized under the 
Foreign Assistance Act.
    When we purchase and deliver U.S. commodities, we work with 
two types of partners: nongovernmental organizations, like 
Catholic Relief Services, and international organizations, like 
the World Food Program. These partners choose from a set of 
approved U.S. commodities, and then Food for Peace evaluates 
the offers and buys the commodities on the open market through 
the U.S. Department of Agriculture. After that, cargo is 
shipped from a U.S. port to the recipient country. Upon 
arrival, the food goes to the people in greatest need: children 
under five; pregnant and lactating women; the elderly; and 
other vulnerable populations.
    Our help is needed now more than ever. For the first time 
in decades, the number of hungry people is rising. More than 
820 million people do not have enough food to eat. That is one 
in every nine people on the planet. Conflict is the largest 
factor and compounded by natural disasters like drought. As a 
result, today's crises in places like Syria, South Sudan, 
Venezuela, and Yemen, they are bigger. They last longer. They 
are more complex.
    In partnership with Congress, we must constantly find ways 
to be more coordinated, creative, and efficient in our 
responses.
    In Yemen, conflict has left nearly 17 million people in 
urgent need of food assistance, more than the total population 
of both Georgia and Nebraska combined. If the situation gets 
worse, famine may occur. This school year, USDA has helped feed 
11 million people in Yemen by providing food assistance 
including 450,000 metric tons of food. We have provided wheat, 
beans, and vegetable oil from the United States and are saving 
lives every single day.
    Additionally, 1 million Rohingya refugees live in 
Bangladesh, where they have formed the world's largest refugee 
settlement after fleeing violence in Burma. The U.S. helps feed 
roughly 700,000 Rohingya every year. One of the ways we help is 
providing American-made therapeutic food. This peanut-based 
paste is very effective. If a child is malnourished, parents 
take them to a health center where they feed their children a 
packet a day and watch them grow healthy and strong.
    I was in Bangladesh earlier this year, and I saw at one 
clinic a white board that tracked how many kids that were help 
at that clinic. Two years ago, this clinic alone was treating 
1,000 malnourished kids a month. Today, they are down to 200. 
Our program is making a difference.
    USAID does not do this work alone. As Administrator Mark 
Green has said, tackling hunger requires an all-hands-on-deck 
approach. We work alongside America's farmers, mariners, 
affected governments, other donors, NGOs, and the international 
community. We also coordinate within the U.S. Government. We 
work with the State Department's Bureau of Population, Refugee, 
and Migration on overseas refugee issues. The U.S. Department 
of Agriculture helps us procure title II food. Our development 
activities are an essential component of the Feed the Future 
initiative, led by USAID's Bureau for Food Security. Most 
frequently, we work alongside the Office of U.S. Foreign 
Disaster Assistance, responding to humanitarian emergencies. We 
provide food while they provide other needs, like shelter, 
medical care, and water.
    The forthcoming USAID Bureau for Humanitarian Assistance 
will bring our offices together, creating a more strategic, 
seamless approach to delivering both food and nonfood in 
humanitarian crises.
    In our 65 years, Food for Peace has helped to end hunger 
for more than 4 billion people. That legacy would not have been 
possible without congressional support, including from this 
subcommittee.
    Thank you for the opportunity to testify, and I look 
forward to your questions.

                  GLOBAL FOOD INSECURITY CHALLENGES

    Mr. Bishop. Thank you very much, both of you.
    Let me just make an announcement. Our chairwoman, Mrs. 
Lowey, we anticipate her arrival at any moment, and while we 
will begin our questioning, when she comes, I will give her the 
respect of allowing her to make some opening statement at her 
pleasure. But let me begin the questions.
    Mr. Isley, Mr. Hicks, your agencies have provided food 
assistance around the world for more than 50 years. Can you 
each take a moment to give us a sense of the global picture of 
food insecurity today and then just tell us, in that context, 
what the biggest challenges are that face both of your 
programs?
    And since I have but 5 minutes, I would like for both of 
you. As I understand it, the common mission that you have of 
alleviating hunger and improving food insecurity provides 
different ways of achieving the mission, but the largest cost 
driver for both of you is transportation. So could you also 
just take a moment to discuss how your programs are addressing 
the cost drivers and how the FAS and USAID work together to 
achieve efficiencies in those areas and what challenges remain?
    Mr. Hicks. Excellent question.
    It is something that we think every day about some of these 
challenges on the cost drivers. Overall, there are over a 
hundred million people around the world that require emergency 
food assistance, and we are feeding about 76 million of those. 
It is a huge effort. When it comes to the landscape, we are 
increasingly responding to very complex political crises where 
there is conflict; there is war. It is becoming increasingly 
difficult to get food to the people that need it most.
    When it comes to the transportation, we do work very 
closely with USDA and when it comes to all the pieces of 
getting the food from the U.S. ports to the beneficiary. And we 
are constantly looking for efficiencies. So, for example, we 
have a pilot program tracking the commodities using quick 
reference codes just to have an easier way to make sure that 
the bags are getting to where they need to go in each step of 
the process as one example.
    But every single dollar we save in efficiencies for 
transportation, for example, it is another dollar we can feed 
right back into the program and feed more people. So it is 
something we take seriously. We look at it every day.
    Mr. Isley. Okay. Yeah.
    Mr. Chairman, and to address the first part of your 
question, there certainly is not a lack of opportunities in the 
world in terms of these programs and our ability to select 
priority countries and the number of proposals we receive to 
actually enact the programs.
    In terms of challenges, let me address them separately, 
depending on the program.
    In Food for Progress, one of our key challenges is to meet 
the 70 percent cost recovery requirement as we monetize the 
commodities. This can be challenging in countries where some of 
the U.S. commodities aren't as price-competitive and also when 
you take into account the shipping costs that we incur to get 
the commodities to the country to monetize.
    Also for us--and it highlights your issue on 
transportation--we deal in Food for Progress with a $40 million 
transportation cap that has been flat for over a decade. Now 
this subcommittee did appropriate an additional $6 million for 
transportation in fiscal year 2019, which will provide us more 
flexibility.
    Both of our programs are subject to U.S. Cargo preference, 
which requires at least 50 percent of oceangoing cargo 
generated by our programs to be transported by U.S.-flagged, 
privately-owned commercial vessels. This requirement increases 
our cost of transportation significantly and reduces the amount 
of commodities that we are able to supply.
    Competition for U.S. vessels is limited with only three 
major U.S. carriers participating in the program, and we 
estimate those costs are roughly 200 percent higher than the 
foreign cargo rates.
    Specific to McGovern-Dole, getting host country buy-in is a 
significant challenge we have, and actually implementing 
programs in very remote locations is a challenge. We are 
serious about the graduation requirement and objectives under 
this program, and we work hard with those host countries to 
ensure that that graduation occurs.
    And I would concur with my colleague, Mr. Hicks, on the 
close collaboration between USDA and USAID to try to address 
these challenges, particularly in cargo preference. Our staff 
are meeting constantly to see if there are opportunities to 
ship cargo together for our multiple programs and, therefore, 
reduce cost.
    Mr. Bishop. Thank you very much.
    Perfect timing.
    At this time, I would like to recognize Mr. Fortenberry for 
any questions that he may like to have in this first round.

                IMPROVING PROGRAM IMPLEMENTATION

    Mr. Fortenberry. Thank you, Mr. Chairman.
    So we all agree on the mission and goal. This is, again, 
about America's humanitarian impulse. We also help create 
stability in far-off places. And that is, again, inextricably 
intertwined with national security. So we agree on that.
    The broad architectural question, though, here is: Is our 
policy response the right construct for this era? Now, what 
happens in government is somebody has a good idea, and we 
respond to it. It creates a policy and a program that gets 
embedded in an institution, the department, then carries a sort 
of infrastructure with it into time and those of us who come 
along have to pick that up. But, again, we have got to go back 
and continue to re-examine, is this the right and best 
response? Is your construct the proper one for our modern time 
in USDA? Is USAID's construct the proper one?
    And you mentioned the merging of the food security office 
and the Bureau for Humanitarian Assistance. I think you said 
that. So, again, that is an attempt to start to rethink how a 
more effective response is necessary in modern time.
    So you also mentioned, Director Isley, that you are not 
just doing this program embedded in Foreign Agricultural 
Service on behalf of Food for Peace, as well as Food for 
Progress, or McGovern-Dole, I should say, and Food for 
Progress. You are also working with other partners which 
include land grant institutions, the agricultural industry 
itself, individual donors. Where we sit, again, touching this, 
along with many other things, it is important to me for you all 
to talk about the full spectrum of activities that are going on 
in this space because it ties back to whether or not our policy 
construct is the best and most appropriate one and you are 
seeing movement to change certain things.
    And one other idea before I stop. I will let you answer 
that, if you can, briefly. For instance, OPIC, Overseas Private 
Investment Corporation, has gone through a new phase of 
development which they are shifting to a new model of 
development, finance around equity finance. Does this have 
implications for Food for Progress? Rather than monetizing a 
commodity that then gets--pays for a particular type of 
project, can that combine with other private players who will 
hold a piece of equity and we can leverage that for 10, 20 more 
times the impact?
    It is this type of creative thinking, again, that can 
provide a new architecture on the mission that we all agree 
with. So, I would like to give you a moment to respond to that.
    Mr. Isley. Sure. And thank you, Congressman Fortenberry, 
for the question.
    Similar to USAID, we also are looking at our organizational 
structure and are implementing some transformation change, and 
we are including these programs in a program area with our 
trade promotion programs as well to pick up the full continuum. 
These programs don't sit alone and can be very complimentary to 
programs that you are fully aware of, like Cochran and Borlaug 
and others, to provide educational training and assistance and 
coordinate more with our universities.
    I always think there is room for creativity in looking at 
is there a better way to implement, and it gets down to 
communication and coordination. It gets down to having 
experienced staff and continuing their development and 
expertise and how they interact with all the other providers to 
deliver the programs in the most effective and efficient way.
    So we are driving that communication, not just with USAID 
at the more senior level and at the staff level but across U.S. 
Government broadly and getting more embedded with our 
implementing partners like World Food Program, like Catholic 
Relief Services, and some of the industry partners. Land 
O'Lakes is coming up with some creative programs.
    Mr. Fortenberry. It would be nice to see an inventory of 
all of these components because I think that would be helpful 
to give a bigger picture because it is hard to do, particularly 
here.
    Let me stop right quick.

                      GLOBAL REVIEW PROCESS

    What about the idea, this idea of a country ag leader, a 
country ag coordinator--maybe they are embedded in the Foreign 
Agricultural Service--particularly in Feed the Future 
countries--that then sets up metrics? It is my understanding 
that Feed the Country have 50 to a hundred metrics of outcomes. 
There really ought to be two, you know. Are we stopping child 
stunting and getting to the heart of structural poverty issues? 
And, secondly, what we call yield gap analysis, how well are we 
doing with the resources that are there?
    Again, I am getting ready to run out of time, but I want to 
use this opportunity to force us to reflect higher and bigger 
about structural changes that actually are consistent with the 
mission.
    I have talked too much again, Mr. Chairman. I apologize.
    So I yield back.
    We will come back around.
    Mr. Isley. Well, I can just react to that quickly, 
Congressman. In terms of our footprint and overseas, we look at 
that every single year through a global review process. We 
currently have global attaches, Foreign Service officers in 93 
posts, in addition to our local employed staff. Some of those 
posts serve multiple countries, some of which are implementing 
these programs. So we are constantly looking at that. We always 
have a lead on the USDA side within each of those posts, and 
they coordinate very closely with the USDA or USAID 
counterparts and other government officials within those 
embassies and consulates.
    Mr. Fortenberry. Don't get me wrong. I am very familiar 
with the ag attaches, but I am talking about a next level of 
leadership and policy.
    So thank you.
    Mr. Bishop. The gentlelady, Ms. McCollum, is recognized.

                  POTENTIAL FOR FUTURE RESCISSIONS

    Ms. McCollum. Thank you, Mr. Chair.
    And thank you for holding this hearing here today.
    And to my friend, Mr. Fortenberry, as the lead Democrat in 
the house that worked or the Global Food Security Act for many, 
many years. I was pleased to see that you are here today, the 
Food for Peace office on the witness list.
    We are here talking about Food for Peace, of course, and 
that is the two main types of food assistance under title II 
and the market-based assistance authorized under the Global 
Food Security Act.
    I just want to point out, in 2016, $7.6 billion--excuse 
me--7.6 billion people suffered from food undernourishment. 
Since then, we know we have had Syria, troubles continue in 
South Sudan, Burma, Bangladesh with the Rohingya, and Yemen, 
all countries that I visited. And you work in other countries, 
too. So we know that that number, it has only done but 
increased, and the Emergency Food Security Program, that is 
funded under the International Disaster Assistance account 
within USAID.
    Now I am going to talk about some accounts here, and I have 
to do it quick in the amount of time I have. We know the 
President zeroed in his budget IDA and Food for Peace. That is 
because of this new reprogramming, reorganization, and I 
understand you are working with the committee on it.
    But in the meantime, until it happens, you need to know 
that I am concerned about the potential for future rescissions 
and the increasing levels of unobligated fund balances within 
IDA and other food assistance accounts. The White House fiscal 
year 2020 budget reported an estimated $2 billion, $2 billion 
of unobligated balances covered over from fiscal year 2019. And 
we know that there is hunger in this world. We know where it 
is. While some carryover is expected--I chair the Interior 
Committee, and I expect the secretary to have some carryover--
the IDA account has a total funding level of only $4.4 billion 
in fiscal year 2019, meaning half of the money was not spent. 
Half of the money was not spent to feed hungry people all over 
the world.
    To address this, the fiscal year 2020 omnibus bill included 
report language and bill language stating that the IDA funds 
shall be distributed--shall be distributed--within 60 days of 
enactment. The fiscal year 2020 House-passed version of the 
SFOP shortens this timeline within the bill, and report 
language requires that IDA funding be distributed within 30 
days. These people are hungry now.
    The Senate also has concerns in their SFOP drop, which is 
their State and Foreign Operations, and that hasn't been to the 
full committee yet, but it has passed through the subcommittee 
and that maintains the 60-day language. It requires report 
language on strict reporting requirements of unobligated 
balances.
    So, over the past two fiscal years, the House and the 
Senate have been making it perfectly clear, trying to get your 
attention, that we when we put taxpayers' dollars towards these 
important programs of saving children from starvation and 
stunting, that we know that these funds are going to get out 
the door.
    So, gentlemen, can you explain to me what is going on here? 
I am fully supportive of looking at reprogramming, 
reorganization, but in the meantime, Congress has appropriated 
these funds. People are hungry, malnutrition, and starving, and 
half the fund balance has not been accounted for.
    Mr. Hicks. So, first of all, thank you for the question.
    I think, number one, message well received, loud and clear. 
I think, for the way we program, I appreciate your 
acknowledgment that some carryover is actually necessary for us 
to have a steady flow of a response. So there needs to be some 
carryover from year to year, and thank you for acknowledging 
that.
    Ms. McCollum. But not half.
    Mr. Hicks. Correct. So, you know, we are constantly trying 
to ensure that we have stability. When a sudden onset like a 
Dorian happens, we have to have funds available, and many times 
we are in between fiscal years, and these events happen. We 
have to have a certain kind of reserve on hold, but, you know, 
I know that some of the budgetary language is being worked out. 
I assure you whatever is, you know, signed into law we will 
faithfully execute.
    There is no shortage of hunger around the world. Even if we 
piled up every single penny in IDA and in title II and only 
used it for food----
    Ms. McCollum. I only have a minute. So you are telling me 
that half the funding that wasn't spent in fiscal year 2019, it 
is ready to go out the door? You can submit to this to the 
committee?
    Mr. Hicks. So I can only speak to on the food side. The 
Office of Foreign Disaster Assistance, we share a portion of 
the IDA account with the Office of Foreign Disaster Assistance. 
So they have their own budget process. We are not yet merged 
into one single Bureau of Humanitarian Assistance. So I can't 
speak on behalf of the entire account because, you know, there 
are carryovers that are attributed to both offices. So some of 
that is food. Some of it is not food. And none of it is title 
II, the title II appropriation.
    Ms. McCollum. Mr. Chair, I think we should ask for when 
this money is going to be spent because, as Mr. Fortenberry 
pointed out, there are people very hungry, malnutrition, and, 
in some cases, starving.
    Thank you.
    Mr. Hicks. I am very happy to provide a more detailed 
response on kind of the budget flow for the record.
    Ms. McCollum. That would be great. Thank you.
    Mr. Hicks. Okay.
    Mr. Bishop. Thank you.
    Mr. Moolenaar.

            PROGRAMMATIC APPROACH UNDER DIFFERING CHALLENGES

    Mr. Moolenaar. Thank you, Mr. Chairman.
    And thank you both for being here today.
    I wanted to ask you both a couple of questions. You talked 
a little bit about involvement in conflict areas. You have 
talked a little bit about places where there are natural 
disasters.
    I wonder if you could speak to, you know, kind of how your 
approach differs in those kind of scenarios and what are the 
kind of the challenges you face in each of those kinds of 
situations?
    Mr. Isley. Yeah, thank you, Congressman Moolenaar.
    The USDA programs are not designed to be the short-term 
disaster relief type programs. They are more mid- to long-term 
under the McGovern-Dole and the Food for Progress programs. So 
we are identifying priority countries with similar criteria but 
aren't necessarily implementing in some of the most difficult 
countries from a security standpoint, like USAID and others are 
more equipped to do, but we are trying to identify those 
countries where we can come in and provide assistance when the 
appropriate time is right.
    And an example of that is like Food for Progress. If you 
look at our 2019 award, we did award Venezuela, a subject on 
the democratic transition of Venezuela, to go in and provide 
capacity-building work to reestablish some of their 
agricultural capacity to produce for their own domestic use and 
for export and to be an export market for the U.S. as well in 
the future.
    So we identify countries that are in difficult 
circumstances beyond just food security and are able to 
implement programs in those geographies to provide medium and 
longer term assistance, not immediate disaster relief.
    The same way on McGovern-Dole. Obviously, some of these 
countries also have the biggest challenges with feeding school-
aged children, and we identify those countries where we can 
actually effectively implement these programs and implement 3- 
to 5-year projects to try to raise up the ability and deal with 
the malnutrition at the school-age level and work with the 
governments hand in hand to try to get them to transition into 
providing that support directly.
    Mr. Moolenaar. So, just as a quick follow up, you mentioned 
Venezuela. I did notice that. How do you work in a situation, 
what is happening there right now? I mean, are you able to find 
partners to work with in Venezuela, or how does that work?
    Mr. Isley. Yes, yes, we have.
    And it is a partner that has been involved in Venezuela for 
quite some time and is also partnering with other organizations 
like Inter-American Institute for Cooperation on Agriculture 
(IICA) that we work with routinely in that region and it is 
also through our participation in an interagency process. So we 
are very involved with State Department, USAID, and others as 
we look at the full range of assistance and services we can 
provide at the right moment in Venezuela's transition.
    Mr. Moolenaar. Okay. Thank you.
    Mr. Hicks. Sure. So there are basically three scenarios 
where Food for Peace operates and responds. Primarily, we are 
an emergency response. We look at the need and we meet the need 
on the emergency basis, but one type of response would be a 
sudden onset kind of like Hurricane Dorian, where there is an 
immediate need; there is an immediate disaster, and we need to 
quickly move in to get food to help save lives.
    We also have more protracted conflict kind of settings, 
like in Yemen, like in northeast Nigeria, where it is a 
protracted crises, where there isn't a political solution to 
the underlying problems that is driving the food insecurity. It 
is a long-term, high-risk environment.
    And then the third is we have development programs where we 
look at countries that have recurrent shocks, like drought, and 
we do development programs funded through this committee where 
we help communities adapt to those recurrent shocks and get 
them on their journey to self-reliance, which is one of the 
priorities of Administrator Mark Green, so they don't have to 
rely on humanitarian assistance the next time the shock comes 
by.
    Mr. Moolenaar. Just as a follow up, the World Food Program 
with the U.N., how do you coordinate with their efforts?
    Mr. Hicks. So we look at every crisis and every activity by 
itself, and we make a determination whether or not which 
partner is the right partner. And in the cases where the World 
Food Program is the best positioned to meet that particular 
activity, we will enter into an agreement with them. And it is 
a whole process, whether it is going to be title II commodities 
or other types of assistance.
    But when it comes to how we coordinate on a grander scale, 
we are actually on the board of the World Food Program. And 
together, with my colleagues from the USDA, we go as the U.S. 
delegation where we have the broader kind of strategic 
conversations. We also get into their, you know, backyard a 
little bit and tell them how they need to clean up their 
management issues and better align their accountability with 
what our standards and expectations are.
    Mr. Moolenaar. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Pocan, please.

                      USAID PROGRAMS IN GAZA

    Mr. Pocan. Thank you very much, Mr. Chairman.
    And thanks both for being here.
    If you could also send my greetings to Mark, I would 
appreciate it. He comes from my home State. I would say he is 
one of my favorite Trump appointees, but I did that when 
Commissioner Gottlieb was here, and then he resigned a month 
later. So tell mark Green, ``Hey,'' please. I would appreciate 
that.
    I want to follow up a little bit on the questions about 
going to tough areas. So, back in February, we quit going and 
doing work in the West Bank in Gaza. And I know that there has 
been a lot--1.1 million people are on food assistance; 95 to 
100 percent of the water is undrinkable. There was a U.N. 
report that said, by next year, Gaza will be unlivable. I just 
had a professor in from Gaza who was visiting for a couple of 
weeks and said that, just in the last few weeks, they have had 
suicide bombings against Hamas police from people who have been 
radicalized even further because of the situation there.
    My concern is, while we had projects going on there around 
food assistance and other areas--also there is a company in my 
district that had recently completed a water desalination 
project and working on the reservoir. They are shuttered, not 
even opened, because the funding went away.
    Can you give me an update on, you know, what other projects 
have had to be abandoned in that area and what the consequences 
are of the fallout from those projects stopping in that area?
    Mr. Hicks. So, first of all, you know, I don't have the 
fullest of programs that were operating in those areas, but I 
am happy to provide the details on not just for our programs 
but all of the U.S. aid programs, but the decision and the 
policy for West Bank, Gaza, Palestinian territories, they 
happen in a different, kind of different level beyond the 
humanitarian scope. It is more the diplomatic/strategic kind of 
policy, but, you know, as soon as any policy shifts occur, we 
are constantly vigilant in assessing needs around the world, 
including in that region, and, you know, we will follow. We 
always follow where the needs are.
    Mr. Pocan. Do we still have any staffing with that mission?
    Mr. Hicks. That is not something I have an answer for you 
right now, but I can go to the Middle East bureau and provide 
you for the record the information.
    Mr. Pocan. I would appreciate that.
    I think a followup question maybe to then, too, would be 
what the situation on the ground, their assessment, since that 
assistance has been pulled, again, just because I have gotten 
reports of escalation of what is happening in that area. You 
know, clearly, this is something that we all should be 
concerned of. And, you know, just I am getting varied firsthand 
reports including from, I guess, a completed water desalination 
plant that can't be opened when you have got undrinkable water. 
We have already put all the money in, and we are just not doing 
the final step. So I would appreciate it.

                PLANS FOR IRAQI AND SYRIAN REFUGEES

    Also, in regards to Iraq and Syria and refugees, I really 
appreciate all the efforts that we do in this area. However, I 
am concerned that there is no plan beyond the immediate. I am 
afraid things could spiral downward in the camps and outside 
the camps without a plan. So a few questions. What are the 
short- and medium-term plans for returns and resettlement of 
Iraqi refugees and Syrian internally displaced persons, and how 
are we engaging with those governments to ensure resettlement 
is safe and there is employment opportunities and functioning 
infrastructure, et cetera? And what efforts are there to 
develop a comprehensive repatriation plan for the 11,000 people 
that are currently in camps in 58 different countries?
    Mr. Hicks. So, on the resettlement and repatriation issue, 
that is not something that is handled by my office. It is 
something that, obviously, affects our work. We do follow, you 
know, the changing landscape, you know, but it does present 
particular challenges for how we get our assistance, which is 
the food side of the equation, how we get our assistance to 
folks as they are on the move.
    So I don't have--I am not the--it is not our office that 
handles that, but, you know, when it comes to the provision of 
food, we go where the need is. So, whether they are going to be 
internally displaced, resettled back, as long as there is a 
food insecurity that we have been able to assess, and we have 
access, we are going to be continuously providing food to the 
folks with the greatest need.
    Mr. Pocan. Okay. I appreciate it.
    Any information you could get would be much appreciated. I 
know it is a little beyond your scope, but I thought, since you 
are here, this is a good opportunity to ask those questions.
    And then, finally, I will spend my final 15 seconds, so the 
farms in my area--and it is even immediately outside the 
district, but a lot of my district residents working at--
provide a lot of good, especially corn-based dry product. We 
really appreciate that. Love to have people come and visit 
those companies anytime. We would be glad to set up any visits 
if anyone is in the area. Give Mark Green a chance to go to a 
Badger or Packer game.
    Mr. Bishop. With the gentleman's final second, would you 
yield to Mr. Fortenberry for that final second?
    Mr. Fortenberry. I am intrigued by your question, 
particularly regarding the refugee situation in Iraq. I would 
urge you--I would like to talk to you privately about this. I 
have a northern Iraq security resolution that goes to the heart 
of this, went with the Director of the USAID there last year, 
along with Sam Brownback. There are some good things happening. 
Can we chat off on the side?
    Mr. Pocan. Absolutely. Thank you. I appreciate it.
    Mr. Bishop. Thank you.
    At this time, I am pleased to yield to the former chairman 
of this subcommittee, the gentleman from Alabama who is a big 
supporter of both of these programs and has a great history 
with them, Mr. Aderholt.

              MERGING HUMANITARIAN ASSISTANCE ACCOUNTS

    Mr. Aderholt. Thank you, Mr. Chairman.
    It is good to be here, and thanks for your leadership.
    And thank you both, guests, for being here today and for 
your testimonies.
    I want to start out by reiterating a concern that I brought 
before this subcommittee many times, and I believe that any 
type of proposals to reform or eliminate programs that have 
U.S. commodities and cargo preferences be eliminated are ill-
advised. The preferences align with the administration's policy 
of America First, and the programs have worked successfully 
since the creation of the programs back in the 1950s.
    I just like for to you explain, you know, why you believe 
these programs, which I think offer in-kind food assistance 
that can be very helpful, have once again been proposed for 
elimination.
    Mr. Hicks. Sure. I am very happy to answer that question. 
So the proposal in the budget request would actually take all 
humanitarian assistance accounts, whether it is title II, 
international disaster assistance, or migration refugee 
assistance, and merge them into one new account. So, in effect, 
it is not just title II, but it is also the IDA account and the 
MRA account that would be eliminated, and this new account 
would be stood up where all humanitarian assistance would be 
provided under one account. It would be proposed at $6 billion, 
and it would do a few things.
    Number one, it would maintain the U.S. position as a world 
leader on humanitarian assistance. Number two, it would provide 
a better flexibility for the program to respond whatever the 
conditions are on the ground, without artificially favoring one 
type of response over another. Basically, every year, we have a 
zero-based budget, where we look at the needs. We look at all 
the different types of responses we can have, whether it is 
title II or LRP or market-based. And we make the best choice 
for each and every response. And what this account would do 
would not set artificial requirements to use one or the other 
but allow the facts on the ground to inform whether we use 
title II.
    So, in places like Yemen, there is no local market. There 
are no local regional procurements we can make. We have to use 
title II commodities. So, you know, when we say we want to 
increase flexibility, it is about using whatever is appropriate 
for each response. South Sudan, Yemen, they are going to be 
primarily title II U.S. in-kind commodity type responses under 
the current situation. And I don't see that kind of need for 
U.S. commodities changing anytime soon.
    Mr. Aderholt. Go ahead.
    Mr. Isley. So I would just echo what Director Hicks said. 
It is more of the consolidation of these programs within USAID, 
with USDA continuing to provide support as needed based on our 
expertise and our footprint globally as well, but it addresses 
some of the challenges, reduces the duplication, and would 
center it all within USAID.
    Mr. Aderholt. Well, and I understand that there has to be a 
combination of things. I just have seen and when I chaired this 
subcommittee, there seemed to be a movement to try to, you 
know, eliminate these U.S. Commodity and cargo preferences and 
I just--I just want to--I would really hate to see those 
completely eliminated because, when we go back home as Members 
of Congress and we explain that we are trying to help people--
and I think most Americans around the world want to try to be 
helpful, to feed people that are hungry. I don't know of any 
American that does not have that thought.
    However, there are some--they do have concerns about when 
cash is sent over, but when you send American-grown produce 
over or some kind of--that is grown and that helps the farmer 
here and helps the people over there, it is a lot easier sell 
than saying, ``We are just going to send some cash over.'' I 
understand that sometimes you have to do that. I understand, 
and it needs to be both, but I can tell you if we--it is a lot 
easier. I have to sell the American people this is the money 
that we, the American taxpayers' dollars.
    And so if it is an easier sell--and saying we are not going 
to allow farmers to ship their goods and try to help them and 
it is a--to me, it is a win-win situation. It helps the 
farmers. It helps the shippers, and it helps the people who 
receive it.
    So I am just saying that it is really--I think you are 
treading on very dangerous ground to try to go down that route 
because I have so many constituents that red flags go up when 
you talk about sending cash or sending money, but if you are 
sending some commodities to help feed somebody, then they are 
much more likely to say, ``Yes, we want to help.''
    So I just tell you that because, like I said, this is the 
taxpayers' money that we are spending on this, so I think that 
needs to be--I see my time is up.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    The gentleman from Texas, Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.

                ADDRESSING CENTRAL AMERICAN ISSUES

    First of all, to both of you, thank you for the great job 
that you all do. I want to see if I can focus on Central 
America. That has been an issue for the whole country. I was 
just down there with Speaker Pelosi, and we saw the great work 
that you all are doing, USAID and the other folks. And you all 
have come up with a lot of good work over the years, and we 
appreciate what you all do.
    You know, the bottom line is, as you have, folks coming in 
from Central American, we have to look at the drivers, why they 
are coming here. The wall is a 14th century solution that is 
not going to stop those people. We have to go to the root of 
the problem, and looking at some of the research that you all 
done, I mean, you guys are right.
    For example, some of the key findings that you all have 
looked at, if you look at data from 166 countries for the last 
40 years, it shows you that, as long as you have different 
income levels, the folks on the lower income level will be 
coming over here. So, as long as we don't help work with those 
countries, they are going to be coming here.
    Violence leads to migration. Corruption drives migration. 
Lack of jobs is another thing. And the strongest economic 
factors associated with people coming up here have to look at 
food insecurity--and this is from your own research--and, of 
course, families' personal economic situation. You all have 
done a lot of work including how the coyotes--and I have some 
of the work that you all have done--why they come up here, how 
they advertise, how they use social media. And it is an amazing 
situation what they do to try to get people over here.
    The funding that the President wanted to cut was wrong. As 
you know, he reversed that because we heard it from your folks; 
this would have been a disaster in Central American if we would 
have allowed those cuts to happen. Back in 2014, when they 
started coming up, Congresswoman Kay Granger, myself, and 
Congress restarted this program, $750 million. Unfortunately, 
it has been cut down to about I think a little over $500 
million. The President was looking at stopping $1.1 billion a 
few months ago, and I am glad he reversed and flip-flopped on 
that position because it would have been the wrong thing to do 
on this.
    So my question is and I know a lot of the success stories. 
We went to some of the USAID work that you all did a lot, but 
we have to do a lot more and we have put in billions of 
dollars. And for the billions of dollars we are putting, what 
are the results? What else can we do? What else can we leverage 
to do this? Because we have to go to the root of the problem. 
So appreciate any insights you can give me.
    And, again, I have everything, what you did for, you know, 
what you are doing in Honduras, Salvador, Guatemala. It is 
wonderful work. We need to do that.
    And before my time runs out, as you answer the question, I 
do have a rider here that I wish you guys would respond within 
the time that is asked, asking you to look at Central America, 
and this is USAID and, of course, USDA also, working groups so 
we can work with them on the agriculture part. I will ask you 
to make sure you fulfill the time to do this.
    Tell me: What else can we do beside putting more money in 
Central America?
    Mr. Isley. Yes, thank you, Congressman.
    We have many active projects within the scope of McGovern-
Dole and within the scope of Food for Progress in that region. 
We also implement Cochran and Borlaug scientific exchange 
programs with thought leaders there to improve the capacity of 
their agricultural industries.
    One project I would like to highlight in specific is 
TechnoServe, our implementing partner in Ecuador, El Salvador, 
Guatemala, Honduras, Nicaragua, and Peru, where we are building 
capacity in cacao and coffee production. That supports 120,000 
farmers, 1,200 organizations, is valued at $47 million to 
provide that kind of stability and, again, production that 
benefits the U.S. industries based on the output.
    So we are continuing to look at opportunities to implement 
these programs in that region and support the very people you 
are talking about and improve stability there.
    Mr. Cuellar. Can you give us an inventory, both of you all, 
what you all are doing there? Again, I am very supportive, and 
I want to do more, but if you all can give me an inventory 
because, as you know, coffee provides affected the situation. 
The drought, they have a drought there, so whatever we can help 
them address that. And, you know, a lot of people think people 
are coming in from the urban areas, but a lot of the folks are 
coming in, according to your work, are from the rural areas, 
where the agricultural areas are at. So we really need your 
help, and whatever we need to do--I know we are at the end of 
the funding process--what we can do to put more money into the 
areas, we need your assistance.
    Mr. Isley. Very good. We will follow up on the inventory.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T9606A.008
    
    [GRAPHIC] [TIFF OMITTED] T9606A.009
    
    [GRAPHIC] [TIFF OMITTED] T9606A.010
    
    [GRAPHIC] [TIFF OMITTED] T9606A.011
    
    Mr. Hicks. And just quickly, so I don't run over the time, 
but a lot of the programs you were referencing are handled out 
of our Latin American, Caribbean bureau. Very happy to provide 
you inventory information. I will get that relayed back to you 
for the record if that is okay.
    You did ask how we might improve. I think it is a good 
opportunity. You mentioned a lot of data that we collect and we 
monitor.
    Mr. Cuellar. Excellent data.
    Mr. Hicks. And, you know, the last farm bill was passed 
with an increase in our funding to our data collection type of 
contract. We have a contract that is called a Famine Early 
Warning System, and it is where we pull in data from crop 
yields to rainfall to purchasing power, all the different 
components to figure out where the food insecurity is. You guys 
provided us some ability to increase our monitoring, evaluation 
to make sure that that program is at tiptop shape. So you guys 
are already doing a lot to help us, and I appreciate your 
referencing to our vigorous data collection because that is 
what drives our targeting of our program.
    Mr. Cuellar. Thank you.
    And I appreciate both of you. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Bishop. I would like to recognize Mr. Fortenberry for 
purposes of request for submission to the record.
    Mr. Fortenberry. Yes. Thank you, Mr. Chairman.
    And when I have my full 5 minutes, I will go into this in 
more detail. This is a letter I wrote to the Comptroller 
General, the Government Accountability Office, regarding what I 
asked you earlier in terms of a survey of all internationally 
related food assistance programs in our government and 
internationally.
    But I am going to come back to this. Thank you, Mr. 
Chairman.
    Mr. Bishop. Thank you.
    I would like to recognize Dr. Harris.

                     VENEZUELAN ASSISTANCE

    Mr. Harris. Thank you very much, Mr. Chairman.
    And, yeah, we are certainly a very generous nation, but I 
have a couple of questions for you. One thing that came up is 
that, in the testimony, there is mention of Venezuela receiving 
assistance. Is that just for this future fiscal year if they do 
democratization, or have they been receiving assistance up 
until now?
    Mr. Isley. Correct. Yes, it would be for the future year, 
and it would be contingent on the transition to a democratic 
government that would meet our satisfaction to release those 
funds with our implementing partner.
    Mr. Harris. So, right now, they are not one of the 38 
countries mentioned in your testimony that received aid.
    Mr. Isley. Correct.
    Mr. Harris. Good.

                       GMO CORN REJECTION

    Now a couple/few years ago, I was in Kakuma in Kenya, which 
I understand is one of the countries that receives aid, and 
visited the camp there, went to the food distribution site, and 
was a little puzzled to find that they reject U.S. corn for 
human consumption because it is GMO corn. This is very curious 
to me because my children eat GMO corn, and I find it a little 
unusual that a country that asks for U.S. aid would actually 
reject it because, you know, they don't want their children to 
eat what my children eat.
    So, of those 38 developing countries and these programs, 
how many will not accept U.S. corn because it is GMO corn for 
human consumption?
    Mr. Hicks. First of all, I eat GMO every day.
    Mr. Harris. I think almost everyone in this room does 
probably.
    Mr. Hicks. But I don't have the total number, but I will 
tell you that we have an amazing, phenomenal Ambassador in 
Rome, who is Ambassador Kip Tom, and it is his job to work on 
these international agriculture and food assistance issues, and 
this is on his radar. It is at the top of his list. He is an 
excellent advocate to try to convince these countries that GMO 
not only isn't going to hurt you; it could probably help you 
overcome a lot of the food insecurity and agricultural 
challenges that are in a lot of these countries.
    So I feel like we have really good representation right now 
on this issue. It is not something that I in my humanitarian 
capacity do, but with our Ambassador, who I coordinate with and 
his staff almost daily, it is on his radar, and it is also on 
the radar of the Bureau of Food Security, which is a sibling 
bureau to the Humanitarian Bureau. The Administrator there, 
Beth Dunford, it is something on her radar, too, where she is 
actively working on this.
    So I am very happy to provide the USAID information on 
which countries have these issues, and I can help direct you to 
any resource you want to talk about this issue.
    Mr. Harris. Well, that is what I would like. I would like 
to know which countries actually will not accept U.S. 
humanitarian aid of GMO corn. It is fascinating. Look, our 
district, we do corn and soybeans. Okay. They are GMO, 
basically. I mean, 88 percent of corn, 90 percent of corn is 
GMO. It is not a hundred percent. But we are talking about 
trade, and everybody is criticizing the President: Oh, it is 
trade, you know.
    Look, that is a trade--the fact that there are European 
nations, many European nations, trading partners who will not 
take, who will not accept U.S. GMO corn for human consumption--
and I will tell you, because I had these discussions with some 
of these Parliamentarians, they know this is political. They 
know there is no scientific background for this. So why aren't 
we using our aid programs as leverage against these political 
trade barriers that are put up by these countries?
    Mr. Isley. Well, we do, and it is USDA's job to address 
some of those barriers, and we do that through these programs 
and a lot of others.
    This is an example of them adopting European policies in 
this area and us continuing to work very hard to reverse that, 
rebut that. And Food for Progress, for instance, we have 
several projects in the SPS area, sanitary/phytosanitary, to 
implement U.S.-based policies, science-based policies, not 
based on fear. And it is our people, our attaches, our local 
employed staff that get a lot of these shipments cleared that 
may originally face obstacles based on whatever those import 
barriers are, whether they are GMO or other requirements 
countries may have, that are ill-advised.
    So we work very hard to get them cleared there, also on the 
trade side, but also in these programs. And we target Food for 
Progress. We target Cochran, Borlaug to try to educate people 
and to implement well-thought-out programs that not only 
improve productivity but also sustainability and a lot of other 
benefits of these technologies we see. So I am passionate. I 
grew up on a farm in Iowa. Corn and soybeans. We use GMOs. I 
get it.
    Mr. Harris. Thank you very much.
    Our farmers are the best agricultural producers in the 
world, using the best technology, and have a lot to offer this 
world, and these obstacles are tremendously frustrating to me.
    Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Bishop. Thank you very much.

                  IN-KIND FOOD ASSISTANCE ISSUES

    Mr. Isley and Mr. Hicks, I would like to return to a 
subject that Mr. Aderholt touched on and ask you to discuss how 
your programs ensure that the in-kind contributions support 
both our farmers at home and the agricultural economies of the 
recipient countries. Our authorizing and Appropriations 
committees spent a number of years studying these effects and 
trying to strike the right balance. In the past, we have heard 
concerns that the use of the in-kind donations sometimes limits 
the sustainability and the strength of the local agricultural 
economy. And I recognize that programs, such as the Local and 
Regional Procurement Program, have been established to attempt 
to defray the consequences of in-kind donations.
    But this is just one of the options in your toolkit to 
ensure that your programs achieve the ultimate goal of creating 
self-sustaining agricultural economies in recipient countries. 
How do you respond to these criticisms of in-kind donations and 
how do you address these concerns and what improvements need to 
be made to your programs to ensure that in-kind donations 
advance the local agricultural economy? And tell me whether or 
not the programs are flexible enough today to do this and still 
give the pride and the utilization of American-grown products.
    Mr. Isley. Thank you, Mr. Chairman.
    And we work, first and foremost, we work very closely with 
our ag industry constituents in terms of these in-kind 
contributions. We work with our sister agency AMS on the 
procurement of those, as Director Hicks had mentioned.
    To give you an example, under Food for Progress, we 
purchased 185,000 metric tons of U.S. commodities comprising 
soybeans, wheat, rice, and others. So those groups are very 
interested. Peanuts is another big commodity we supply. So, 
they are very interested and meet with us regularly on that. We 
also are constantly accepting proposals on what is qualified 
under these programs to supply in expanding that list based on 
our technical criteria.
    In terms of impact, some of the criticism really is on the 
Food for Progress Program as the monetization of those. So one 
of our requirements is we have to do economic analysis of 
potential disruption of local economies and local markets. We 
take that very seriously. Our Office of Global Analysis does 
those economic analyses and could substantiate the low to 
negative or no impact from the supply, and the actual 
commodities are chosen on that basis as well.
    And we take those projects in turn on the Food for Progress 
and use the proceeds to actually build capacity there. So, 
instead of negative consequences, there is actually positive 
consequences. I mentioned cacao and coffee projects. There is 
also the regulatory SPS projects. We have got a poultry project 
where we are developing feed and productivity improvements to 
the poultry industry in Tanzania.
    So there is multiple positive benefits to the countries, 
but we are always cautious about economic impact from the 
supply of the commodities.
    Mr. Hicks. And I would echo that.
    We are required under title II to do what is called, which 
you are probably familiar with, the Bellman determination. It 
is a constant monitoring of the economic impact. You know, when 
we are the largest provision of food aid, bringing in large 
amounts of food can sometimes cause some imbalances on the 
local economies. So we take a lot of care to make sure that we 
are looking at all the right indicators. We are doing market 
analysis. We have partner reporting requirements on this 
particular issue from their point of view. We also have a lot 
of field-deployed staff who are monitoring local markets.
    So we take it very seriously. It is a very important piece 
of the Food for Peace Act and the requirements that are in the 
legislation, and we adjust our response accordingly when we 
find that there is an imbalance.
    Mr. Bishop. Thank you.
    We have been joined by the distinguished lady from New 
York, the chairwoman of the full Appropriations Committee. She 
has had a busy schedule this morning, but I announced earlier 
that, when she arrived, we would defer to her and the 
gentlelady has arrived.
    And I am pleased to recognize the gentlelady from New York, 
Mrs. Lowey, for whatever time she may take and for whatever 
questions she may like to address.

               EMERGENCY VS. DEVELOPMENTAL ASSISTANCE

    The Chairwoman. I do want to thank the distinguished chair 
for that very generous introduction. We are trying to get our 
work done, and there are several Appropriations hearings at the 
same time. So thank you.
    And thank you to our distinguished minority for your 
generosity. I appreciate it.
    So, let me welcome you. I am sure you have been adequately 
welcomed, Mr. Isley from USDA, Mr. Hicks from, USAID. And, 
again, I apologize because I was looking forward to hearing 
from you with your very important presentation.
    From the perspective of this subcommittee and as chairwoman 
of the Subcommittee on State and Foreign Operations, it really 
is important that we provide responsive assistance in 
emergencies and that, when possible, we ensure this aid 
compliments the longer term development programs. Providing 
humanitarian support to those in need, in addition to promoting 
resilience and sustainable economic growth, is critical to 
global stability and national security.
    The distinction between food aid and longer term food 
assistance is important in my judgment, and I am sorry that I 
missed your very eloquent, informative testimony, but I did 
kind of read it quickly before.
    A couple of questions. Mr. Hicks, can you please describe 
how USAID Food for Peace efforts in areas where there is 
prolonged need for food differ from those supported by 
development initiatives, like Feed the Future, that promote 
longer term food security? Now, if you have already answered 
these questions and my staff is giving them to me again, I 
apologize. So, I am assuming you didn't have them. If you can 
please respond, to what degree does Food for Peace programming 
intersect with Feed the Future programming, if at all?
    Mr. Hicks. Sure. Well, first of all, I think it is a good 
enough question to answer twice. So but this is my first time 
to address it. So Food for Peace is indeed integrated with Feed 
the Future. We are part of the Global Food Security Strategy 
that was required under the Global Food Security Act, and we 
are increasingly becoming more coordinated with the Bureau of 
Food Security and the Feed the Future initiative.
    Our job is to address the root causes of hunger. We target 
the most vulnerable. We work in our development programs that 
is funded by this subcommittee. We improve agriculture. We 
improve livelihoods, maternal and child health, women's 
empowerment, disaster-risk reduction. What we are doing is 
helping these communities adapt to the recurrent shocks, and 
then we program alongside Feed the Future, who will come in 
behind us, and once these communities graduate from the need 
for humanitarian assistance, Feed the Future will come in and 
not only help them thrive with their own self-reliance but also 
get access to markets and value chains.
    And I actually saw this with my own eyes when I was in 
northern Kenya a couple of years ago. There was a community 
that was using--there was needing humanitarian assistance for 
drought. We did a work-for-assets program funded by this 
committee, and we were able to provide food in exchange for the 
creation of a water canal. Feed the Future came in behind us, 
used that water canal to help them with agricultural 
development. Now they are feeding themselves, and they are 
connected to value chains, and they have graduated from our 
program.
    So, that is one example. We are doing it in Sahel. We are 
going to be doing it in Haiti. We are working alongside 
integrated in Feed the Future with the Global Food Security 
Strategy, with the resilience strategy, and with the new 
redesign where we are transforming USAID and bringing these 
bureaus together. We are creating a Humanitarian Bureau. That 
is going to be a sibling bureau to the Resilience and Food 
Security Bureau to even bring tighter integration.
    The Chairwoman. I just want to pursue that for a minute 
because what I have wondered about: Are there measures in place 
to ensure that funding for these programs is complimentary and 
not duplicative?
    Mr. Hicks. That is an excellent question.
    So our primary focus on the emergency side, we are the 
first responders on the emergency side. We are the lead for 
providing emergency food assistance. On the development side, 
we have a different target, a different kind of angle for 
addressing the root causes. So we are doing the root causes of 
hunger. We are working with communities that have recurrent 
shock. And Food for Peace, they are working many times at a 
systems level, at a national level, or they are working with 
families that are further along that journey of self-reliance 
that Administrator Green talks about. These are like the 
entrepreneurials, the producers.
    So we start at the beginning of the journey, and then we 
pass it off for them to take it off to the further development. 
So we are working at the most vulnerable portion of that.
    The Chairwoman. So just continue that a bit because, in 
protracted scenarios, how does it work?
    Mr. Hicks. So, in protracted scenarios, because there is 
such a high degree of conflict and instability, there aren't 
opportunities for development. And if there are, it is very on 
the margins. If there aren't the persistent rule of law and 
safety and security, markets aren't going to happen.
    The Chairwoman. Right.
    Mr. Hicks. So, for example, in northeast Nigeria, it is 
complete unsafe for free markets, for rule of law. There aren't 
those opportunities, but we are monitoring the situation. So, 
when there are opportunities on the margins and it makes sense 
to make those investments, we will be working with Feed the 
Future to take advantage of those if the landscape changes.
    The Chairwoman. And in areas where vouchers used and 
particularly in settings where food aid is required for 
prolonged periods, just tell me how programs are being designed 
because I know how difficult it is.
    Mr. Hicks. Sure. So, on vouchers and other means to use 
local markets, there really isn't a one-size-fits-all. We look 
at the availability of infrastructure, the availability of 
markets for each individual response, and we design our 
response according to what is there.
    So, in Jordan, where it is a middle-income country, where 
there are thriving markets, we use many times debit cards at 
local markets. There is a very high number of urban refugees 
spread out over the entire city--all these cities. It is 
impossible to find each one and give them a bag of wheat and 
there is this thriving market. So it is more effective to use 
that kind of credit card system. And other places where there 
isn't electronic banking, we will sometimes use paper vouchers, 
and there are systems in place to monitor that and to ensure 
that those vouchers are being used by the right beneficiaries. 
Sometimes we use biometrics, photo IDs, other methods.
    But every context is different, and we have to kind of 
build out from whatever is available there and what the dangers 
and the risks are for each.

                      FOOD ASSISTANCE BRANDING

    The Chairwoman. Now I would also appreciate your views with 
respect to branding. Is food aid from the United States 
generally branded with USAID marking?
    Mr. Hicks. Absolutely. So, when it is commodities, whether 
it is U.S. commodities or local regional commodities, the USAID 
logo is very prominently displayed on the bags, containers, on 
the packaging. If it is a debit card, like used in Jordan, the 
logo is on that card. If it is on voucher paper, it is on the 
paper. If it is a work-for-food worksite, there is a sign 
prominently displayed. When I was in northern Kenya, I saw the 
sign right next to the canal. It is very evident. We also use 
messaging like radio and other types of public messaging as 
well.
    The Chairwoman. Thank you very much. I won't take advantage 
of your generosity anymore, but I really appreciated this, and 
I apologize because there is another hearing next door.
    Thank you very much, Mr. Chairman.
    Mr. Bishop. Thank you very much, Madam Chairwoman. We are 
always delighted to have you come and to bring your insight and 
your wisdom, and we appreciate that very much.
    At this time, I will be happy to yield to Mr. Fortenberry.
    Mr. Fortenberry. Thank you again, Mr. Chairman.
    And, Madam Chair, if I can say, even though you didn't have 
the benefit of the fullness of the hearing earlier, your 
questions were absolutely precisely what was needed at this 
point in the hearing. So, thank you. That is a great 
contribution.
    The Chairwoman. Well, thank you, my friend.

                    FOOD ASSISTANCE INNOVATION

    Mr. Fortenberry. And especially the last one as well, the 
branding, and that is well answered. I think this is very 
important, particularly what Congressman Aderholt was also 
saying, that we are telling, we have to tell our story. No one 
else will.
    I am going to be abstract for a moment more. Then we are 
going to go to some specifics.
    The letter that I have sent to the General Accountability 
Office asks for a map, a mapping strategy. This is basically 
the language: Develop a comprehensive map of all United States 
and international food-related agencies and programs and share 
that with Congress in the next 180 days.
    It won't be quite that fast. You said you do your own 
analysis of global food programming. Maybe we can have another 
conversation about that; but I think can you understand my 
intention in trying to push this because I worry about the 
issue of fragmentation. Very helpful to hear has that the 
Global Food Security Act is one of the compelling factors of 
helping you all integrate Feed the Future and your other 
emergency assistance programs, how those build upon one 
another. That is very helpful feedback.
    But if you simply do a survey, back-of-the-envelope survey, 
I mean, we have USAID and USDA with long-term structural 
missions, emergency missions, long-term development missions, 
and overlap. We have university systems. You mentioned Borlaug 
program out of Iowa as well, extraordinary work that they do. 
We have the Food for Peace program, McGovern-Dole, Food for 
Progress. On the international stage the World Food Program, 
the biggest agency in this humanitarian space, which America 
leads by the way. You mentioned the Ambassador that we have to 
the U.N. Missions in Rome, most of which are agricultural 
related. We give money to the International Fund for 
Agricultural Development. Nobody is even aware of what it does. 
The U.S. African Development Foundation.
    The Food and Agriculture Organization founded in post-World 
War II in Rome, how are we integrated with them? And by the 
way, China has now taken the leadership of the FAO. Now tell me 
what that means. Give me an answer. How much does China give 
away in humanitarian assistance each year? Can you give it 
right off the top of your head? You don't have to answer it. It 
is a rhetorical question.
    Mr. Hicks. I don't think there is any.
    Mr. Fortenberry. I asked the Secretary of State this, and 
he had a dumbfounded, stumped look. I said: Mr. Secretary, it 
is not meant for an answer because who knows? And it is 
probably about as close to zero as you get.
    One of the largest economies in the world and now the 
leadership of the one of the main organizations for 
agricultural development, agricultural policy, and, to some 
degree, food assistance is being headed by a country that does 
no lifting in this regard.
    So, again, back to the original intent of what I was 
talking about, this is an important mission for us. It is not 
well understood in terms of the global communities--well, in 
terms of America's generosity in creating conditions for 
stability in the global community. It is not understood by most 
Americans.
    This is part of the reason why, again, taking a step back 
and surveying everything that we are doing and assuring that it 
is properly integrated, that we are not just moving old things 
forward in time, but that we are actually creating innovation 
in this space for the 21st century is absolutely necessary for 
this committee to be in front of.
    So thank you, Mr. Chairman, for including this in the 
record.

                       ASSISTANCE TO HAITI

    Haiti, so, Congressman Moolenaar, who was here earlier, and 
I traveled to Haiti at the request of an NGO who you help 
underwrite, Director Hicks. They do extraordinary work among 
the poorest of the poor. So we go to the hurricane-ravaged 
areas. We look at some special projects they have been involved 
in. We run into people that are developing solar down there, 
Americans, young American people, probably in some way funded 
by you all as well. We also met with a group of business people 
who all of them could move their businesses out of Haiti, but 
they are good Haitians who want to do the right thing for their 
own people.
    Haiti's market has been disrupted by this problem with the 
Dominican Republic. It is in some ways a nonfunctioning market 
because of the problem of the, I would say, black market flow 
of goods and the disruption of the ability for the Haitian 
market to function properly.
    Anyway, the point being Haiti can't even provide enough 
coffee production for its own needs, much less the potential of 
what it could be for huge export opportunity for the people 
there. So we looked at that southern area there, the potential 
for a co-op in partnership with that business community who 
does not have the ability of initial capital leverage, which we 
could provide, maybe even in concert with, again, the 
development finance organization of OPIC, on and on and on. 
That becomes then a project scalable to meet not just the 
emergency needs in ravaged areas but then the type of Feed the 
Future, Global Food Security Act thinking for long-term 
sustainability.
    How are we going to get to this? I mean, it is ripe with 
potential out there, but I just want to make sure that we are 
all thinking innovatively and in solidarity together about what 
can be versus getting caught up in what a lot of times we do, 
just managing what is. Now we are doing both and here, and I 
appreciate that.
    And I have done it again. I have taken my full 5 minutes, 
Mr. Chairman, without letting them respond. What am I supposed 
to do? I yield back.
    Mr. Bishop. Thank you, Mr. Fortenberry.
    Ms. McCollum.

              MITIGATION OF EFFECTS OF CLIMATE CHANGE

    Ms. McCollum. Thank you, Mr. Chair.
    Well, we have heard about Wisconsin and Iowa, but Mr. 
Borlaug is a Golden Gopher from the University of Minnesota. So 
I just wanted to set the record straight on that. We are all 
proud of him, and he saved many, many lives.
    Everybody here today knows that we are witnessing record 
numbers of forcibly displaced people around the world, 
displaced people, refugees, asylum seekers. We are experiencing 
them right here at our borders.
    June 2019, the U.N. Refugee Agency put the number at a 
devastating 70.8 million people around the world. Rising global 
conflicts, which Mr. Hicks has spoken to, regional instability, 
we are well aware of extreme weather and climate events that 
are directly linked to food insecurity.
    But in Central American--and I am using a World Bank 
statistic--20 million people in Central American are displaced 
by climate change, and it is brought on because they have been 
experiencing serious drought conditions since 2014 and that 
drought just makes the whole issue of growing coffee with this 
leaf lust in coffee more because it is so heat-sensitive.
    And, in fact, when I was in El Paso, through an 
interpreter, I heard firsthand from coffee farmers who were 
fleeing 3 years of bad crops. They had no trace of their own. 
They wanted to--went to the cities and then were attacked by 
gangs, and they just want to work and feed their family. That 
is El Salvador, Guatemala, and Honduras. I met farmers from all 
areas.
    So, as the food insecurity continues to set the stage for 
instability and violent extremism in regions that we already 
know are highly volatile, can you maybe talk about some of the 
mitigation that you are doing in some programs or what USAID is 
doing to help with this global landscape, which is under, you 
know, under siege with climate change? Because some of these 
transformative things that we have in Feed the Future means 
that we have to start being honest and open and talk about 
alternative crops.
    Mr. Hicks. So, for the programs that would help, like, the 
coffee growers and some of these challenges with agriculture, 
like using different types of techniques for agriculture, that 
is most definitely a key part of Feed the Future initiative 
that is led by the Bureau of Food Security.
    Where Food for Peace comes into play, we also have a part 
to play when there is the need for adaption to change. And that 
is what we do with our nonemergency development portion of 
title II. As I was saying earlier to the chairwoman, you know, 
we are working with the most vulnerable to help them adapt to 
these changes. So, whatever the recurrent shock is--and a lot 
of times it is from these climate shocks, these droughts, these 
adverse weather conditions--we are building resilience in those 
communities. We have been doing it for decades where we are 
helping them adapt to those recurrent shocks, to adjust the way 
they are living so that they can survive those shocks and 
continue with their own self-reliance and self-development.
    And it is a keystone piece of what our program does.
    Mr. Isley. Yes, and Food for Progress is particularly 
tailored to be able to address some of the challenges you 
highlighted. I mentioned the Food for Progress Program we 
actually have targeted in the region with the three countries, 
in addition to others you mentioned, on coffee and cacao 
production. Some of objectives are to increase the 
productivity, based on the current economic conditions they are 
facing around their production practices, around genetics, and 
how to improve in drought conditions and other conditions the 
actual output.
    That is targeted broadly at a large group of farmers. It 
also benefits the U.S. based on taking the output of that 
production and helping the industries here like our chocolate 
industry, our coffee industry, based on being able to import 
the products that they produce there.
    So it is a very well-integrated project, and it is very 
directed at adopting technology and best practices to improve 
productivity and to improve stability of the people there that 
can earn a livelihood based on that production.
    Ms. McCollum. Thank you, Mr. Chair.
    Climate change is affecting our farmers here, whether we 
want to call it extreme weather or whatever or extreme drought. 
And if we don't get a handle on it, reducing the amount of 
carbon in the air, this problem is only going to get worse.
    I thank you, gentlemen, for your work. I really do. Thank 
you.
    Thank you, Mr. Chair.
    Mr. Bishop. Mr. Fortenberry.

                  FOOD FOR PROGRESS AND HAITI

    Mr. Fortenberry. Okay. Thank you, Mr. Chairman. I 
appreciate it. I will try not to give another speech.
    Back to Haiti, again, it is what I call place-based 
strategy. So we take a specific place, and we actually can 
generalize to the principle of what we are talking about. You 
respond to the emergency need.
    Years ago, I was election observer in Haiti and, again, 
after the massive earthquakes. But the Vice President of Haiti 
told us something that was very fascinating. He said: You have 
given us $5 billion.
    He said: Thank you, but what we need is direct foreign 
investment.
    Now that term is a bit out of vogue now, but at the same 
time, the idea is back to what I was saying earlier.
    Let's envision, for instance, if we took Food for Progress 
and we had a conversation with the new development finance 
mechanism at OPIC that comes on the heels of what USAID is 
doing in terms of going in first, working with NGOs, creating 
some stability in the midst of an emergency. You go to southern 
Haiti, which was devastated, and you see the sides of those 
mountains and the fullness of potential for coffee production 
there. You use the business community's expertise who are 
trustworthy there--this is an underlying problem of lack of 
governance and corruption and on and on--but, again, an 
integrated partnership in solidarity with good people who are 
going to provide the long-term sustainability so they can 
graduate, and the actual conditions there will shift so that 
each small-scale farmer is then put in a type of community 
cooperative arrangement, underwritten by capital flows, 
potentially with us, maybe leveraged through the private sector 
through your program or others. That then is shepherded by 
USAID, who is on the ground and our own American Embassy 
personnel, Foreign Ag Service, that creates a project in 2 to 3 
years, first with banana production development so you are 
covering your variable costs, because that crop comes in 
quickly, with a longer term crop of coffee coming because the 
banana can grow underneath the coffee plant.
    So this is all and then you take that model, once it works, 
and scale it across regions that have this particular type of 
production opportunity or others.
    This is the type of thing we are talking about when we are 
looking for a spectrum of who is doing what and where, and what 
can we do to innovate around it? Mark Green and I have had this 
same conversation. I would like to have it with you in terms of 
the potential of Food for Progress, as well as OPIC's new 
development initiative, because this is what I want to get to, 
in my time, however long it is here. What is the architecture 
of what we are doing now, which seems to be very, very good? 
But what gaps are there potentially--others international 
partners who are doing certain things, other international 
partners who are claiming rights to ownership of this space but 
aren't doing anything, as I mentioned the Chinese, and on and 
on. This is the broader conversation that I want to continue 
with you all.
    I am going to stop and let you respond to everything I have 
been saying.
    Director Hicks, you haven't had a chance.
    Mr. Hicks. So I actually would love to respond. And Haiti, 
it is one of the places where we are working.
    Mr. Fortenberry. Remember it is a place-based strategy. It 
is a specific that is generalizable to the principle. That is 
what I want to keep doing.
    Mr. Hicks. Correct. There are very specific contextual 
issues in Haiti that we are responding to, but we are changing 
the way we respond to the emergency in a way that better links 
to the resilience and the development side. So what we are 
doing is we are, if we are providing food, we are going to do a 
food-for-assets kind of project, where we give folks food, but 
we have them work on an asset for the community that can be 
used in a development context. Feed the Future can come in 
behind us, use those assets to then build resilience, and get 
them on that self--
    Mr. Fortenberry. How does that reconcile with the Food for 
Progress option?
    Mr. Isley. Well, yes, we can certainly build that program, 
and we put Haiti on, in communication coordination with USAID, 
as a priority country for McGovern-Dole. We just awarded fiscal 
year 2019 a new project to do school feeding in Haiti to bring 
on that midterm support for Haiti, not the immediate emergency 
relief, but the longer term sustainability.
    We can certainly look at Food for Progress in the same 
context to build onto what is already there and address the 
capacity in the crops you mentioned. We are very attuned to 
doing that.
    Mr. Fortenberry. So, once I good threat report back, it is 
going to come to you guys as well in this committee. And we are 
going to continue this conversation about the continuum of 
support mechanisms here and throughout the world, what we do 
well, what gaps we might be able to identify, how we can become 
more effective.
    Thank you, Mr. Chairman.
    Mr. Isley. We welcome that.
    Mr. Fortenberry. Very good. Thank you.
    Mr. Bishop. Thank you.
    Mr. Isley, Mr. Hicks, you each have programs where success 
can be defined in a number of ways.

           DETERMINING WHEN PROGRAMS ARE NO LONGER NECESSARY

    Mr. Isley, I think Mr. Hicks has given an excellent 
example, but can you just tell us--well, both of you can--how 
you determine when a country should be graduated from your 
programs when they have achieved a level of self-reliance that 
removes the need for the programs to continue? And, of course, 
Mr. Isley, if you want to give us an example of a success 
story, we would appreciate that.
    Mr. Isley. Certainly. And as indicated before and in the 
written and oral testimony, graduation is a key component as we 
go into the programs in the beginning and as we work with the 
implementing partners. Of course, each of the programs that we 
implement have specific selection criteria. So the countries 
would need to continue to meet that selection criteria or fall 
outside of it in terms of whether they would get new 
programming.
    Take McGovern-Dole, for example, and school feeding. We 
work very closely with local government and even country 
government in terms of the taking over those programs. The 
things we do to ensure the graduation is to ensure that the 
laws and regulations are in place that enable them to take over 
the programs and to ensure they do what you all do, and that is 
appropriate the necessary money and have the ability to 
actually take over the school feeding from us.
    Recent example in Laos, where we are in transition for the 
government to take over, we brought a group over to the U.S. 
under our Cochran program and provided that education here in 
the U.S. on how to transition that programming back to the 
country.
    A recent example of success, as was mentioned in the 
materials, was Kenya where over 4,000 schools that we have 
supported have now been taken over by the Kenyan Government, 
again, with our assistance and support in that transition.
    Mr. Hicks. Well, you know, I provided a specific example, 
but I think a response that would maybe get to what both of you 
guys are looking at right now: We at Food for Peace we don't 
have anything on autopilot. We are constantly assessing. 
Basically, every year, we do a zero-based budget when it comes 
to our response. We are constantly looking at the data. We have 
the Famine Early Warning System. We have staff on the ground. 
We are looking at rainfall. We are looking at purchasing power. 
We are looking at all the things that go into food insecurity, 
and if the data doesn't show there is a need, we are not going 
to give humanitarian assistance to folks that don't have a 
demonstrated need. So we are constantly shifting.
    So there are countries that graduate. There are countries 
that get on the dole. All we are doing is looking at the data, 
and the second that we provide assistance to folks that don't 
have a need, it is no longer humanitarian. So we take the data-
driven approach very seriously. So, you know, it is not on 
autopilot. And we are constantly looking. If there is an area 
that had drought but doesn't have a need this year, we are not 
going to fund that area.
    Mr. Bishop. Well, Mr. Isley and Mr. Hicks, I would like to 
thank you both for being here today.
    I know there are a few things on which you are going to get 
back to us on, and I think you will be submitted some questions 
that you can get back. I think Mr. Cuellar wanted some 
additional information. And we will forward additional 
questions to you for the record, and we would appreciate your 
diligence in getting responses back to us as quickly as you 
can.
    But, again, we would like to thank you. And we look forward 
to continuing to work with you to make sure that these programs 
and American generosity is administered effectively and 
efficiently around the world. With that, we thank you.
    And the subcommittee is adjourned.
    [Questions and answers submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T9606A.012
    
    [GRAPHIC] [TIFF OMITTED] T9606A.013
    
    [GRAPHIC] [TIFF OMITTED] T9606A.014
    
    [GRAPHIC] [TIFF OMITTED] T9606A.015
    
    [GRAPHIC] [TIFF OMITTED] T9606A.016
    
    [GRAPHIC] [TIFF OMITTED] T9606A.017
    
    [GRAPHIC] [TIFF OMITTED] T9606A.018
    
    [GRAPHIC] [TIFF OMITTED] T9606A.019
    
    [GRAPHIC] [TIFF OMITTED] T9606A.020
    
    [GRAPHIC] [TIFF OMITTED] T9606A.021
    
    [GRAPHIC] [TIFF OMITTED] T9606A.022
    
    [GRAPHIC] [TIFF OMITTED] T9606A.023
    
    [GRAPHIC] [TIFF OMITTED] T9606A.024
    
    [GRAPHIC] [TIFF OMITTED] T9606A.025
    
    [GRAPHIC] [TIFF OMITTED] T9606A.026
    
    [GRAPHIC] [TIFF OMITTED] T9606A.027
    
    [GRAPHIC] [TIFF OMITTED] T9606A.028
    
    [GRAPHIC] [TIFF OMITTED] T9606A.029
    
    [GRAPHIC] [TIFF OMITTED] T9606A.030
    
    [GRAPHIC] [TIFF OMITTED] T9606A.031
    
    [GRAPHIC] [TIFF OMITTED] T9606A.032
    
    [GRAPHIC] [TIFF OMITTED] T9606A.033
    
    [GRAPHIC] [TIFF OMITTED] T9606A.034
    
    [GRAPHIC] [TIFF OMITTED] T9606A.035
    
    [GRAPHIC] [TIFF OMITTED] T9606A.036
    
    [GRAPHIC] [TIFF OMITTED] T9606A.037
    
    [GRAPHIC] [TIFF OMITTED] T9606A.038
    
    [GRAPHIC] [TIFF OMITTED] T9606A.039
    
    [GRAPHIC] [TIFF OMITTED] T9606A.040
    
    [GRAPHIC] [TIFF OMITTED] T9606A.041
    
    [GRAPHIC] [TIFF OMITTED] T9606A.042
    
    [GRAPHIC] [TIFF OMITTED] T9606A.043
    
    [GRAPHIC] [TIFF OMITTED] T9606A.044
    
    [GRAPHIC] [TIFF OMITTED] T9606A.045
    
    [GRAPHIC] [TIFF OMITTED] T9606A.046
    
    [GRAPHIC] [TIFF OMITTED] T9606A.047
    
    [GRAPHIC] [TIFF OMITTED] T9606A.048
    
    [GRAPHIC] [TIFF OMITTED] T9606A.049
    
    [GRAPHIC] [TIFF OMITTED] T9606A.050
    
    [GRAPHIC] [TIFF OMITTED] T9606A.051
    
    [GRAPHIC] [TIFF OMITTED] T9606A.052
    
    [GRAPHIC] [TIFF OMITTED] T9606A.053
    
    [GRAPHIC] [TIFF OMITTED] T9606A.054
    
    [GRAPHIC] [TIFF OMITTED] T9606A.055
    
    [GRAPHIC] [TIFF OMITTED] T9606A.056
    
    [GRAPHIC] [TIFF OMITTED] T9606A.057
    
    [GRAPHIC] [TIFF OMITTED] T9606A.058
    
    [GRAPHIC] [TIFF OMITTED] T9606A.059
    
    [GRAPHIC] [TIFF OMITTED] T9606A.060
    
    [GRAPHIC] [TIFF OMITTED] T9606A.061
    
    [GRAPHIC] [TIFF OMITTED] T9606A.062
    
    [GRAPHIC] [TIFF OMITTED] T9606A.063
    
    [GRAPHIC] [TIFF OMITTED] T9606A.064
    
    [GRAPHIC] [TIFF OMITTED] T9606A.065
    
    [GRAPHIC] [TIFF OMITTED] T9606A.066
    
    [GRAPHIC] [TIFF OMITTED] T9606A.067
    
    [GRAPHIC] [TIFF OMITTED] T9606A.068
    
    [GRAPHIC] [TIFF OMITTED] T9606A.069
    
    [GRAPHIC] [TIFF OMITTED] T9606A.070
    
    [GRAPHIC] [TIFF OMITTED] T9606A.071
    
    [GRAPHIC] [TIFF OMITTED] T9606A.072
    
    [GRAPHIC] [TIFF OMITTED] T9606A.073
    
    [GRAPHIC] [TIFF OMITTED] T9606A.074
    
    [GRAPHIC] [TIFF OMITTED] T9606A.075
    
    [GRAPHIC] [TIFF OMITTED] T9606A.076
    
    [GRAPHIC] [TIFF OMITTED] T9606A.077
    
    [GRAPHIC] [TIFF OMITTED] T9606A.078
    
    [GRAPHIC] [TIFF OMITTED] T9606A.079
    
    [GRAPHIC] [TIFF OMITTED] T9606A.080
    
    [GRAPHIC] [TIFF OMITTED] T9606A.081
    
    [GRAPHIC] [TIFF OMITTED] T9606A.082
    
    [GRAPHIC] [TIFF OMITTED] T9606A.083
    
    [GRAPHIC] [TIFF OMITTED] T9606A.084
    
    [GRAPHIC] [TIFF OMITTED] T9606A.085
    
    [GRAPHIC] [TIFF OMITTED] T9606A.086
    
    [GRAPHIC] [TIFF OMITTED] T9606A.087
    
    [GRAPHIC] [TIFF OMITTED] T9606A.088
    
    [GRAPHIC] [TIFF OMITTED] T9606A.089
    
    [GRAPHIC] [TIFF OMITTED] T9606A.090
    
    [GRAPHIC] [TIFF OMITTED] T9606A.091
    
    [GRAPHIC] [TIFF OMITTED] T9606A.092
    
    [GRAPHIC] [TIFF OMITTED] T9606A.093
    
    [GRAPHIC] [TIFF OMITTED] T9606A.094
    
    [GRAPHIC] [TIFF OMITTED] T9606A.095
    
    [GRAPHIC] [TIFF OMITTED] T9606A.096
    
    [GRAPHIC] [TIFF OMITTED] T9606A.097
    
    [GRAPHIC] [TIFF OMITTED] T9606A.098
    
    [GRAPHIC] [TIFF OMITTED] T9606A.099
    
    [GRAPHIC] [TIFF OMITTED] T9606A.100
    
    [GRAPHIC] [TIFF OMITTED] T9606A.101
    
    [GRAPHIC] [TIFF OMITTED] T9606A.102
    
    [GRAPHIC] [TIFF OMITTED] T9606A.103
    
    [GRAPHIC] [TIFF OMITTED] T9606A.104
    
    [GRAPHIC] [TIFF OMITTED] T9606A.105
    
    [GRAPHIC] [TIFF OMITTED] T9606A.106
    
    [GRAPHIC] [TIFF OMITTED] T9606A.107
    
    [GRAPHIC] [TIFF OMITTED] T9606A.108
    
    [GRAPHIC] [TIFF OMITTED] T9606A.109
    
    [GRAPHIC] [TIFF OMITTED] T9606A.110
    
    [GRAPHIC] [TIFF OMITTED] T9606A.111
    
    [GRAPHIC] [TIFF OMITTED] T9606A.112
    
    [GRAPHIC] [TIFF OMITTED] T9606A.113
    
    [GRAPHIC] [TIFF OMITTED] T9606A.114
    
    [GRAPHIC] [TIFF OMITTED] T9606A.115
    
    [GRAPHIC] [TIFF OMITTED] T9606A.116
    
    [GRAPHIC] [TIFF OMITTED] T9606A.117
    
    [GRAPHIC] [TIFF OMITTED] T9606A.118
    
    [GRAPHIC] [TIFF OMITTED] T9606A.119
    
    [GRAPHIC] [TIFF OMITTED] T9606A.120
    
    [GRAPHIC] [TIFF OMITTED] T9606A.121
    
    [GRAPHIC] [TIFF OMITTED] T9606A.122
    
    [GRAPHIC] [TIFF OMITTED] T9606A.123
    
    [GRAPHIC] [TIFF OMITTED] T9606A.124
    
    [GRAPHIC] [TIFF OMITTED] T9606A.125
    
    [GRAPHIC] [TIFF OMITTED] T9606A.126
    
    [GRAPHIC] [TIFF OMITTED] T9606A.127
    
    [GRAPHIC] [TIFF OMITTED] T9606A.128
    
    [GRAPHIC] [TIFF OMITTED] T9606A.129
    
    [GRAPHIC] [TIFF OMITTED] T9606A.130
    
    [GRAPHIC] [TIFF OMITTED] T9606A.131
    
    [GRAPHIC] [TIFF OMITTED] T9606A.132
    
    [GRAPHIC] [TIFF OMITTED] T9606A.133
    
    [GRAPHIC] [TIFF OMITTED] T9606A.134
    
    [GRAPHIC] [TIFF OMITTED] T9606A.135
    
    [GRAPHIC] [TIFF OMITTED] T9606A.136
    
    [GRAPHIC] [TIFF OMITTED] T9606A.137
    
    [GRAPHIC] [TIFF OMITTED] T9606A.138
    
    [GRAPHIC] [TIFF OMITTED] T9606A.139
    
    [GRAPHIC] [TIFF OMITTED] T9606A.140
    
    [GRAPHIC] [TIFF OMITTED] T9606A.141
    
    [GRAPHIC] [TIFF OMITTED] T9606A.142
    
    [GRAPHIC] [TIFF OMITTED] T9606A.143
    
    [GRAPHIC] [TIFF OMITTED] T9606A.144
    
    [GRAPHIC] [TIFF OMITTED] T9606A.145
    
    [GRAPHIC] [TIFF OMITTED] T9606A.146
    
    [GRAPHIC] [TIFF OMITTED] T9606A.147
    
    [GRAPHIC] [TIFF OMITTED] T9606A.148
    
    [GRAPHIC] [TIFF OMITTED] T9606A.149
    
    [GRAPHIC] [TIFF OMITTED] T9606A.150
    
    [GRAPHIC] [TIFF OMITTED] T9606A.151
    
    [GRAPHIC] [TIFF OMITTED] T9606A.152
    
    [GRAPHIC] [TIFF OMITTED] T9606A.153
    
    [GRAPHIC] [TIFF OMITTED] T9606A.154
    
    [GRAPHIC] [TIFF OMITTED] T9606A.155
    
    [GRAPHIC] [TIFF OMITTED] T9606A.156
    
    [GRAPHIC] [TIFF OMITTED] T9606A.157
    
    [GRAPHIC] [TIFF OMITTED] T9606A.158
    
    [GRAPHIC] [TIFF OMITTED] T9606A.159
    
    [GRAPHIC] [TIFF OMITTED] T9606A.160
    
    [GRAPHIC] [TIFF OMITTED] T9606A.161
    
    [GRAPHIC] [TIFF OMITTED] T9606A.162
    
    [GRAPHIC] [TIFF OMITTED] T9606A.163
    
    [GRAPHIC] [TIFF OMITTED] T9606A.164
    
    [GRAPHIC] [TIFF OMITTED] T9606A.165
    
    [GRAPHIC] [TIFF OMITTED] T9606A.166
    
    [GRAPHIC] [TIFF OMITTED] T9606A.167
    
    [GRAPHIC] [TIFF OMITTED] T9606A.168
    
    [GRAPHIC] [TIFF OMITTED] T9606A.169
    
    [GRAPHIC] [TIFF OMITTED] T9606A.170
    
    [GRAPHIC] [TIFF OMITTED] T9606A.171
    
    [GRAPHIC] [TIFF OMITTED] T9606A.172
    
    [GRAPHIC] [TIFF OMITTED] T9606A.173
    
    [GRAPHIC] [TIFF OMITTED] T9606A.174
    

                                       Wednesday, October 16, 2019.

        FOOD AND NUTRITION SERVICE: POLICY AND PROGRAM OVERVIEW

                                WITNESS

BRANDON LIPPS, DEPUTY UNDER SECRETARY, FOOD, NUTRITION, AND CONSUMER 
    SERVICES
    Mr. Bishop. The subcommittee will come to order.
    Good morning and welcome to today's hearing.
    Testifying before the subcommittee today is Mr. Brandon 
Lipps, the Deputy Under Secretary for the Food, Nutrition, and 
Consumer Services.
    Thank you for being here, Mr. Lipps. I am looking forward 
to today's discussion.
    The Food and Nutrition and Consumer Services (FNCS) is the 
largest mission area at the U.S. Department of Agriculture 
(USDA) in terms of its budget size. In the fiscal year 2020 
appropriations bill that was passed by the House in June, the 
Food and Nutrition Services' budget, including the mandatory 
and the discretionary resources totaled more than a hundred 
billion dollars. FNS is responsible for overseeing 15 domestic 
nutrition assistance programs, which millions of our Nation's 
most vulnerable population rely on to feed their children and 
to put a good, healthy meal on the table.
    I often say that the work of this subcommittee touches the 
lives of every citizen on a daily basis. This is especially 
true for the programs that are administered by the Food and 
Nutrition Service. In fiscal year 2020, nearly 6.4 million 
women, infants, and children are estimated to participate in 
the Special Supplemental Nutrition Program for Women, Infants, 
and Children (WIC) program. For the Supplemental Nutrition 
Assistance Program (SNAP), formerly known as Food Stamps, the 
number is 38 million. And in 2020, an estimated 5.28 billion 
school lunches and snacks will be served for the National 
School Lunch Program (NSLP).
    The research is clear: Providing and expanding access to 
healthy, nutritious food improves children's academics and 
their overall health.
    Food insecurity is not only a health issue, but it is also 
a national security issue. Fort Benning is in my district, and 
I often hear from the trainers there that bone density in the 
young recruits is not good because, growing up, they did not 
have enough nutritious food, and this lack of bone density 
causes an increased number of stress fractures during the 
training. And, of course, this ultimately costs the Department 
of Defense and taxpayers a lot of money, and it limits the pool 
of potential all-volunteer recruits for our military.
    Unfortunately, I think there is a tendency by some to want 
to reflexively reduce the cost of programs without thinking 
about the individuals who will be harmed by such actions. That 
is why I was very alarmed when the administration proposed the 
rule that would essentially eliminate broad-based categorical 
eligibility, a move that could kick an estimated 3.1 million 
people off of the Supplemental Nutrition Assistance Program and 
jeopardize school meals for almost a million children.
    Congress had this debate during the Farm Bill. The final 
bill did not include these tightened eligibility criteria, nor 
did it include stricter work requirements for able-bodied 
adults without dependents. Yet the Administration is ignoring 
Congress and, instead, moving forward with executive action to 
address these policies on their own.
    Now, it may be easy and politically expedient to point to 
one millionaire in Minnesota who purposefully defrauded the 
American government and taxpayers as a publicity stunt, but 
that one individual is not representative of all SNAP 
recipients, and we all know the truth is much more complicated 
than that.
    I, like everyone else, believe in program integrity. But 
let's be clear: USDA is not kicking 3.1 millionaires off of 
SNAP. It is kicking 3.1 million vulnerable people off of SNAP.
    I am concerned and I worry that this will 
disproportionately impact working families with children trying 
to climb out of poverty. In 2017, SNAP lifted 3.4 million 
people, including 1\1/2\ million children, out of poverty. The 
economy is still not working for everyone, and the 
Administration should not make it worse by decimating one of 
our most effective safety net programs.
    The Secretary's motto is ``do right and feed everyone.'' I 
like that saying and I feel that it is a very, very worthy 
goal, but when children are going hungry because of your policy 
proposals, you are failing to live up to your own standard.
    Finally, I want to conclude with how alarmed and troubled I 
am at the constant stream of news articles about school 
districts shaming low-income students over their school lunch 
debt. It is unfathomable to me that anyone would shame and 
punish children for their parents' or their guardians' 
inability to afford school meals. Shaming students is not going 
to solve the problem, and it is certainly not going to make the 
youngsters feel more food-secure.
    As you can tell, there is a lot to discuss today, and I 
again want to thank our witness, Deputy Under Secretary Lipps, 
for being with us, and I look forward to our discussion.
    Before we begin, I want to say that I am very proud of the 
Agriculture Appropriations bill that was passed by the House in 
June, and I look forward to conferencing with the Senate this 
fall in enacting a very strong fiscal year 2020 budget for the 
Food and Nutrition Service and all of USDA programs.
    Now I would like to ask our distinguished ranking member, 
Mr. Fortenberry, if he has any opening remarks.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, so much for 
holding this very important hearing. And I will just make a few 
brief remarks.
    I think that most Americans would be very surprised by the 
size of the agricultural budget, and very pleased, frankly, 
with the types of policies that have been enacted by this 
Committee and by the entire Congress over the years to do 
really two things. It is to mitigate risk, to reduce the risk 
for farmers and ranchers and those who provide our food, which 
results in some of the lowest food prices in the world, and to 
protect those who are vulnerable, who have food insecurity. 
That is the dual goal that we work on here. I am very proud of 
that. We spend a lot of money doing it. I think most Americans 
would be surprised by the amount of money we spend doing it, 
but when we go deeper and we peel back what we are doing and 
why and the benefits to society as a whole, I think most 
Americans would be very proud of this work, as I am.
    Now, what we have to do, as you mentioned, Mr. Chairman, is 
to look at the issues of program integrity. And I think as a 
future goal for all of us in Congress, particularly this 
Committee, is to look at the alignment, the possibilities of a 
new type of alignment between food and nutrition and health. 
That ought to be the objective, because the majority of the 
expenditures in this bill are for food and nutrition. The other 
programs, of course, being essential for our farmers and 
ranchers, but the majority of expenditures here are food and 
nutrition. And so in the old days, just counting calories, we 
want to just get people as many calories as possible, but 
ignoring the reality of what it means to have nutritious food 
and also to view this program through the lens of how it is 
transitory.
    Some people need this type of assistance and are going to 
permanently need this type of assistance. Other people--and we 
have some good news in this regard--need it as a transition 
because, for whatever happened, the contingencies in life 
happened to them, they became vulnerable, and we do not want to 
see anyone in America go hungry.
    The good news is, in the last several years, the SNAP 
program rolls have dropped by about 24 percent, as I understand 
it. That is because people are finding access to meaningful 
work. That is something to celebrate. So we have got a dual 
role here; again, a program that protects people in vulnerable 
circumstances, and also gives some people the opportunity to 
immediately rise out of that vulnerability into meaningful 
work. That is a bit of good news that we can all celebrate.
    So, thank you again, Mr. Chairman. I appreciate the 
opportunity to participate in the hearing.
    Mr. Bishop. Thank you, Mr. Fortenberry.
    Mr. Lipps, without objection, your entire written testimony 
will be included in the record, and I recognize you now for 
your statement, and then we will proceed with questions.
    Mr. Lipps. Thank you, Mr. Chairman and Ranking Member 
Fortenberry, members of the Subcommittee, for the opportunity 
to discuss the Administration's fiscal year 2020 budget request 
for the U.S. Department of Agriculture's Food and Nutrition and 
Consumer Services, as well as our priorities and recent 
activities.
    I am Brandon Lipps, the Deputy Under Secretary for Food, 
Nutrition, and Consumer Services. FNS is responsible for 
administering America's nutrition assistance programs, which 
leverage our Nation's agricultural abundance to ensure that 
every American has access to a wholesome, nutritious diet, even 
when they face challenging circumstances.
    Let me underscore at the outset that the President's Budget 
Request for fiscal year 2020 fully funds the major nutrition 
assistance programs to support projected participation of all 
of those who are eligible and participate. As you know, you and 
your colleagues in the Senate have already reported out fiscal 
year 2020 appropriations legislation for the Department in 
advance of today's hearing. Though final action by Congress is 
still ahead, I am in the somewhat unusual position of already 
being able to thank you for your support of several initiatives 
in our requests, particularly those related to customer service 
and program integrity across the 15 programs that we administer 
at the Food and Nutrition Service.
    This committee has expressed interest in USDA's recent 
regulatory actions related to SNAP. While I cannot discuss the 
content of the final rules or the comments we have received on 
them before they are published, I would like to take a moment 
and talk about our objectives in this area.
    Americans, as you note, are a generous people who believe 
in helping those who have fallen on hard times, but we all 
agree that those who can provide for themselves should. SNAP 
and other programs are critical to millions of Americans, and 
we should be proud to have the abundance to come alongside them 
in these hard times. In order to do that, we have a 
responsibility to be good stewards of every dollar.
    For far too long, negative press has weakened American's 
confidence in many of these important programs that you have 
charged us with administering at the Food and Nutrition 
Service. Stories that are sometimes so egregious they appear 
surely to be only rumors are unfortunately verified as factual, 
jeopardizing the future of these important programs for 
millions of families.
    Let's first take a look at the millionaire that the 
chairman mentioned who was legally authorized for SNAP. He was 
not the only millionaire that has been mentioned in the news 
for being able to access the SNAP program. There are others as 
well who have created negative news stories on this important 
program.
    This loophole was first exposed by Congress on oversight 
authority, the Government Accountability Office, in a 2012 
report as having, quote, a negative effect on SNAP program 
integrity, as some States are designating SNAP applicants as 
categorically eligible without providing them the service 
required to make that determination''.
    This loophole received greater scrutiny in 2015 by USDA's 
Office of Inspector General that described how one State 
conferred eligibility by providing recipients, quote, ``with a 
brochure for social services,'' with the OIG further noting 
that the State only mailed the brochure to applicants after it 
conferred confirmed their eligibility for SNAP. This is not 
categorical eligibility.
    Next, let's look at families living across the State line 
from each other, just miles apart. We have learned that one 
family is receiving 2\1/2\ times less in SNAP benefits simply 
because one State uses an inflated and inaccurate utility 
deduction. What begins as a series of observations from 
frontline staff at Food and Nutrition Service about potential 
irregularities, then became a full-blown USDA study initiated 
in 2014.
    We have since confirmed these irregularities because many 
States cannot cite the source of their base calculation for 
these deductions or the year in which they were established. 
This not only creates an uneven patchwork for the 
administration of a Federal program, but it is morally unfair 
to those recipients.
    And, finally, with the lowest unemployment rate in 50 
years, we have employers across this country who cannot find 
enough workers, yet States are continuing to waive the 
congressionally mandated work requirements by stating that 3.6 
percent unemployment is a lack of sufficient jobs. Egregious 
program abuses such as these leave dark clouds over these 
important programs, risking future support and reflecting 
negatively on the recipients who are in need of these programs.
    Families on these programs and the taxpayers who fund them 
expect better from their government. We at USDA are dedicated 
to ensuring these important programs are preserved for those in 
need and that they are administered equitably, with integrity, 
and with the eligibility standards that Congress has provided.
    I remain committed to listening to and collaborating with 
all stakeholders, including each of you on this Committee. 
Working together, we can improve the lives of those who fall on 
hard times and come in contact with this critical program.
    Thank you for having me. And, with that, Mr. Chairman, I am 
happy to answer any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T9606A.175
    
    [GRAPHIC] [TIFF OMITTED] T9606A.176
    
    [GRAPHIC] [TIFF OMITTED] T9606A.177
    
    [GRAPHIC] [TIFF OMITTED] T9606A.178
    
    [GRAPHIC] [TIFF OMITTED] T9606A.179
    
    [GRAPHIC] [TIFF OMITTED] T9606A.180
    
    [GRAPHIC] [TIFF OMITTED] T9606A.181
    
    [GRAPHIC] [TIFF OMITTED] T9606A.182
    
    [GRAPHIC] [TIFF OMITTED] T9606A.183
    
    Mr. Bishop. Thank you, Mr. Lipps.

             SNAP--BROAD-BASED CATEGORICAL ELIGIBILITY

    As you heard from me earlier, I am very troubled by the 
Administration's proposed broad-based categorical eligibility 
rule. The Department's own analysis is that the rule will drop 
9 percent of the current recipients from the rolls, including 
2.2 percent of all households with one or more elderly person, 
and 7.4 percent of all households with children. It admits that 
the rule may negatively impact food security among people who 
do not meet the proposed income and resource eligibility 
requirements.
    Your testimony frames this as a way to end the practice of 
allowing households to be eligible for SNAP by simply being 
handed a brochure from another Federal program. You know, as 
well as I do, that this is a vast oversimplification of that 
issue. If you are applying for SNAP, you and your family are 
either teetering on the brink of food insecurity or you are 
already food insecure.
    Contrary to what I hear, I would argue that the broad-based 
categorical eligibility actually promotes the goals of all 
Americans, rewarding hard work and encouraging self-
sufficiency. It allows States to protect recipients from being 
thrown off SNAP because of a minor increase in their pay. This 
rewards the working poor for working harder. It allows States 
to protect recipients who have very modest levels of savings. 
This promotes self-efficiency, helping families to weather 
emergencies such as an unexpected car repair or some unexpected 
medical expenses.
    States still fully review each person's application. They 
interview the applicant. The applicant has to submit full 
documentation in support of their application. This is not an 
automatic green light to get SNAP, as you may seem to imply. 
Why is it that you insist that the current practice is 
inconsistent with these goals? And, of course, one of the 
concerns is that the impact that the proposed rule would have 
on the eligibility for free school meals. How many children 
will lose access to free school meals under the proposed rule?
    Mr. Lipps. Sure. Mr. Chairman, with regard to your first 
question about why we proposed these, I will go back to your 
statement about this not being a simple issue. It is not a 
simple issue. The issues you raised are important issues that I 
think we can have important conversations about. The reality is 
that under the Administration's proposal, categorical 
eligibility will be maintained in the form that it existed 
prior to the expansion of categorical eligibility to qualifying 
people by the receipt of a brochure.
    Unfortunately, that has moved to a level that it is a 
negative reflection on the program. It has been. Over time, it 
continues to be culled out by oversight agencies of the 
Congress and the USDA as we move forward. Congress has provided 
asset and income tests in statute, and it is our job at USDA to 
ensure that those are abided by as we move forward on that 
front.
    So we put this rule forward to work on the integrity of the 
program, to ensure that it is administered with the confidence 
of all of the American people as we move forward, and the 
issues you raised are important and we would be happy to engage 
with you on those looking forward.
    Mr. Bishop. Okay. Have you pulled back the rule temporarily 
as a result of some data that you learned that would increase 
the number of children that will be kicked off of the school 
lunch program?
    Mr. Lipps. We have not pulled back the rule, no, sir. The 
rule is advancing. The comment period has closed on the rule. 
We did release an analysis that was requested on the indirect 
effect on direct eligibility for school meals. We have shared 
that information publicly. It will be published in the Federal 
Register later this week, and we will have a comment period on 
that for 14 days, which will conclude the finality of comments 
on that rule.
    Mr. Bishop. All right. My time has expired.
    Mr. Fortenberry.

                     SNAP--EMPLOYMENT AND TRAINING

    Mr. Fortenberry. Thank you, Mr. Chairman.
    Again, I think what we are talking about here is the 
fundamental value proposition of fairness.
    I think you mentioned, Mr. Lipps, in your opening 
statement, that Americans are quite generous, and we 
fundamentally believe that if someone is in vulnerable 
circumstances, they deserve help. They deserve heart.
    Mr. Lipps. Yes, sir.
    Mr. Fortenberry. And that is the core of this program. So 
we help those in need, and at the same time we stop those who 
cheat, and at the same time we encourage those who need 
opportunity. So when we struggle through that dynamic, you can 
pluck one or two incidences that were brought to you by the 
Inspector General. I think it needs to be pointed out.
    But what I would like to use my time more so for--and we 
wrestle through where those lines are. But, again, back to the 
point. When we have a flourishing economy which, when labor 
participation rates are going up, where people are finding 
access to meaningful work, this hopefully will begin to 
translate really soon into upward pressure on wages. So it is 
not--it is not the Commerce Department or the Labor 
Department's issue set; it is this issue set as well.
    How do we protect those most in need who may need to be 
permanently on this program and we not only accept that, we 
embrace that as part of our safety net? How do we, through job 
training and other innovative ideas, potentially help those who 
can successfully transition off and celebrate this moment 
because the opportunity for meaningful work and hopefully 
rising wages soon is on the horizon? That is the architecture 
of the main question.
    The second question is, I want to go back to what I said 
earlier. You cannot have a food and nutrition program in 
isolation from the concepts of health; food as medicine. And I 
think we are all learning very, very rapidly that a holistic 
approach to health demands that food be an integral part of the 
approach here.
    So would you comment on both of those, the prospect for 
both of those outcomes?
    Mr. Lipps. Sure. Thanks for that, Mr. Fortenberry.
    I will say one thing that I think all of us in this room 
can agree on and that we can rally behind is the Employment and 
Training Program that Congress has authorized for the SNAP 
program. We got a small increase in that in the Farm Bill. The 
agency has taken a number of actions, prior to my arrival and 
since my arrival, to focus our efforts on that front. It is a 
good time in this economy for people to move back in to work 
and for them to find economic mobility on that front.
    Mr. Fortenberry. Let's say meaningful work. It is very 
important that we make a distinction here. Not just labor force 
participation. That is impersonal. Meaningful work where people 
have real opportunity to advance.
    Mr. Lipps. That is right. Let me talk about that for a 
minute.
    Mr. Fortenberry. And that has been one of the structural 
constraints that don't allow people to move forward.
    Mr. Lipps. Right. With regard to the Employment and 
Training Program, the Agency has taken a very specific focus in 
ensuring that individuals are moved into the type of an 
employment and training program that moves them into meaningful 
work, that we are not just putting them on a job search.
    That may be an important component of what they are doing, 
but I have had the great pleasure in my job of going around and 
seeing these individuals participating in the Employment and 
Training Program and hearing the stories of formerly 
incarcerated individuals who were estranged from their families 
going through these training programs and learning not only a 
particular skill set that gets them meaningful work, but the 
basics of being able to hold on and to keep a job and being 
reunited with their family that they are then providing for.
    I had the opportunity to meet those people. Employment and 
Training is doing that. It is wonderful program that Congress 
has funded and provided us some additional money in the Farm 
Bill. We continue----
    Mr. Fortenberry. Are your successes manifesting themselves 
in aggregate statistics versus anecdotes yet?
    Mr. Lipps. I think we are on the verge of that happening. 
In some States we see that happen.
    One of the initiatives that you-all provided some funds for 
in the appropriations bill was one of the problems that States 
have in advancing this program is tracking this and being able 
to report what is required to receive these Federal dollars. So 
you-all provided some money for us to be able to help States 
with the IT on that side.

                  NUTRITION PROGRAMS AND HEALTH

    Mr. Fortenberry. Okay. Let's come back to that perhaps 
later, but talk again about the alignment of food nutrition and 
health and what you are doing in terms of policy planning in 
this regard.
    Mr. Lipps. Sure. That starts at FNS with our youngest 
population in WIC. We all know, there is a lot of data out 
there that if the youngest of these children don't get the 
nutrition they need at that early age, there is no way to 
correct that. Later in the life, some of that can be corrected 
but not on WIC. And so we look at that as an across-the-
lifespan perspective, both as we produce the Dietary Guidelines 
for Americans, but also as we look at our programs in ensuring 
that that nutrition is----
    Mr. Fortenberry. Okay. As one of the early founders of the 
Farm to School Program and movement, again, you can see what we 
are trying to do: Provide nutritious, fresh options, 
enculturating it, socializing it, and creating actually the 
infrastructure that makes it possible for this type of linkage 
to occur in an ongoing fashion in the future. That is one of 
the program areas, I think, we need to build on to accomplish 
this goal of nutritious food.
    Mr. Lipps. Anecdotally Farm to School is having great 
success on our children's health.
    Mr. Fortenberry. Thank you.
    Mr. Bishop. Ms. Pingree.

                       SNAP--PARTICIPATION

    Ms. Pingree. Thank you very much, Mr. Chair.
    Thank you, Mr. Lipps, for being with us today. I just want 
to start by echoing the chair's--and I am sure some of my other 
colleagues feel the same way--having these significant concerns 
about the suite of the USDA's proposed rules that will 
negatively impact SNAP participation.
    Last month, a bipartisan delegation from my State sent a 
letter to the USDA expressing our opposition to the proposed 
rule on categorical eligibility. According to the USDA's own 
estimate, seven States, including Maine, would see more than a 
15 percent--would see more than 15 percent of SNAP households 
lose eligibility if that rule moves forward. The Maine 
Department of Health and Human Services found that nearly 27 
percent of all SNAP participants in our State are at risk of 
losing benefits under the proposed rule.
    In the delegation's letter we wrote: For a State like Maine 
that is already struggling with food insecurity, these changes 
would be detrimental to the very population the program is 
designed to support.
    I just want to reemphasize that point. We are just talking 
about food here. I believe that everyone has the right to 
healthy and nutritious food. So these SNAP-proposed rules are 
just unconscionable to me. They are only going to worsen the 
hunger in Maine's most vulnerable populations.
    Having anyone go hungry is inexcusable in the world's 
wealthiest Nation. I think you should rescind all of these 
proposals. I am appalled that we even have to have this hearing 
and defend this to the USDA and the Administration. Congress 
already spoke about what we thought we should do, and it is 
appalling that you are trying to reverse that.
    But I am going to leave it there and move on, because I am 
pretty sure you and I not going to agree on this and you are 
going to move forward, but we are going do whatever we can.

                WATER CONSUMPTION IN NUTRITION PROGRAMS

    So completely on a different topic, but also about food and 
hunger, I am also a big believer that food is medicine, as the 
Ranking Member mentioned. And I want to switch gears and talk 
about the consumption of sugar-sweetened beverages. Sugar-
sweetened beverages have been causally linked to obesity, type 
2 diabetes, heart disease, and dental decay. The healthcare 
costs associated with diet-related diseases is an incredible 
burden to our country, and these diet-related diseases are 
especially prevalent in our youth population, robs many of our 
young people of the health--with the healthy future they 
deserve.
    I know everybody is familiar with the MyPlate and how it 
informs programs like the National School Lunch Program, but if 
you look at this, something you don't see in here is a glass of 
water. One in five United States youth and young adults did not 
drink any water yesterday. We need to encourage kids to drink 
more water. It is essential for their good health, and it also 
helps reduce the intake of sugar-sweetened beverages.
    So what actions are the USDA taking to better encourage 
water consumption in our younger populations, whether that is 
the National School Lunch Program, WIC, or the Child and Adult 
Care Food Program? And beyond the access to water, what is the 
USDA doing to make sure that that water is safe?
    Mr. Lipps. Sure. Ms. Pingree, I agree with you about those 
statements on the importance of the dietary guidelines and the 
concerns that you mentioned around sugar-sweetened beverages. 
As you know, the school meals program has specific requirements 
with regard to added sugars within the school meals program and 
what can be sold in schools, even outside the school meals 
program on that front.
    With regard to the scientific evidence that supported these 
GHDs (ph) in the past, I think you know the importance of the 
milk being on MyPlate. Water is important. We give a lot of 
technical assistance and advice to schools on ensuring that 
children are drinking water and staying hydrated, in addition 
to the milk that is an important part of the dietary 
guidelines. And our WIC nutritionists do work across that front 
as well.
    Ms. Pingree. Would you send me more information about what 
kind of technical assistance you provide, also what you are 
doing to make sure that water is safe in schools and other 
places where children would be drinking it?
    Mr. Lipps. Sure.

    [The information follows:]

    In 2016, the Food and Nutrition Service (FNS) issued a memorandum 
to remind Child Nutrition Program operators that children must have 
access to drinking water and to identify resources that can be used by 
schools and child care facilities in meeting this requirement. The 
memorandum also notes that operators may use program funds for costs 
related to obtaining drinking water or testing the safety of water 
supplies. This memorandum also includes links to resources on safe 
drinking water and testing for lead and other contaminants, as well as 
additional technical assistance related to water quality.
          <bullet> SP 49--2016, CACFP 18--2016 [https://
        www.fns.usda.gov/resources-making-potable-water-available-
        schools-and-child-care-facilities-0]: Resources for Making 
        Potable Water Available in Schools and Child Care Facilities

    Ms. Pingree. Okay. I will leave it with that.
    Thank you, Mr. Chair.
    Mr. Lipps. Thank you.
    Mr. Bishop. The gentlelady from California, Ms. Lee.
    Ms. Lee. Good morning.
    Mr. Lipps. Good morning.

               SNAP--BROAD-BASED CATEGORICAL ELIGIBILITY

    Ms. Lee. Thank you very much. Thank you, Mr. Chair, for 
this hearing.
    I am glad to get to know you. And I want to just say a 
couple of things, associating myself with the remarks of my 
colleagues already. The cases you cited early on, I am not an 
attorney. By profession, I am a clinical social worker, but I 
do know that law students are taught that worst case makes bad 
law. And so you cited maybe 3, 5 percent of the worst cases to 
justify many of these very terrible, terrible policies that you 
are putting forward.
    USDA has issued the three proposed rules to SNAP now. I 
also have to say that I am a former food stamp recipient. So 
personally, I am deeply disturbed by these proposals, because I 
know what this means for people who are living on the edge.
    Three quarters of a million people will lose their SNAP 
benefits on the work requirements. And think, 3.1 million 
people, that is including, by your own analysis released 
yesterday, it is 1 million children that will lose automatic 
access to free school meals, even worse than we feared. And 
most recently as of this month, 800,000 households would lose 
SNAP eligibility under the standard utility allowance.
    Yesterday, I received a copy of your response to my letter 
with Majority Leader Steny Hoyer opposing the SNAP categorical 
eligibility rule, which I find to be incredibly lacking in 
substance. You mentioned in your response in the letter that 
these revisions will, and I will quote, ``maintain categorical 
eligibility's dual purpose of streamlining program 
administration, while ensuring that SNAP benefits are provided 
to those most in need.''
    So, Mr. Lipps, exactly how would you maintain these 
provisions if you are taking away assistance from 3.1 million 
individuals, including 1 million children, by your own 
analysis, and taking important folks' States rights away? Has 
USDA done an impact analysis of the administrative burden that 
this would actually place on States?
    Also, let me just ask you, because I want to complete my 
questions, share with the Committee clear evidence, clear 
evidence that cutting people off of food benefits removes 
barriers to work. How does this really help them find a job? 
Actually, 50, 60 percent of people who are eligible for SNAP 
benefits are working. They are working two or three jobs 
because they can't afford to survive with the economy being 
what it is.
    And you mention formerly incarcerated individuals. And I am 
wondering, are you helpful and being supportive of the several 
programs that are circulating--several policies in legislation 
to lift the ban on SNAP benefits which was put into place which 
prevent formerly incarcerated individuals from accessing SNAP 
benefits?
    Mr. Lipps. Thanks, Representative. First, with regard to 
categorical eligibility, I do want to clarify that the rule the 
Administration is proposing is refining categorical 
eligibility. So with regard to broad-based categorical 
eligibility, we are returning to categorical eligibility as it 
was originally implemented. Categorical eligibility is 
generally implemented in such that a program with the same 
eligibility standards or more restrictive eligibility standards 
confers eligibility on programs that have broader eligibility 
standards to ensure that people can get around having to fill 
out multiple applications to access those programs.
    We have an instance now where programs who are not making 
an eligibility determination but are handing out brochures are 
conferring eligibility for other programs, which is causing the 
negative news stories on this program that we see over and 
over.
    Even under the rule, as it was proposed--and we are 
considering the comments now--individuals who qualify for TANF 
services, as they did when categorical eligibility was 
initiated, will continue to qualify for SNAP. And that dual 
purpose will be maintained, ensuring that both we have 
integrity but that individuals continue to have categorical 
eligibility for both TANF and SNAP.
    With regard to your question on the impact for burden on 
States--I tried to write down all your questions, but if I miss 
some, I am sure you will remind me. Impact with burden on 
States, there is an analysis of that in the Regulatory Impact 
Analysis that accompanies the rule. We can follow up with you 
on those exact numbers. I don't have them offhand.
    [The information follows:]

    The Regulatory Impact Analysis published with the proposed rule, 
Revision of Categorical Eligibility in the Supplemental Nutrition 
Assistance Program (SNAP) estimates that States will incur additional 
administrative costs of $1.157 billion over five years. This estimate 
includes both the ongoing administrative costs per case, as well as 
one-time costs to make required system changes and updates to handbooks 
and other materials.
    Furthermore, in accordance with the Paperwork Reduction Act of 
1995, the Food and Nutrition Service (FNS) prepared an analysis 
estimating the proposed rule's additional burden on State Agencies. 
Notice of this information collection was included in the July 24, 
2019, Federal Register notice regarding the proposed rule. FNS' 
analysis estimated that compliance with the information collection 
requirements associated with the proposed rule would add an annual 
3,622,736.20 burden hours to the 53 State SNAP Agencies to conduct 
additional required verifications.
    Proposed Rule, Revision of Categorical Eligibility in the SNAP:
    https://www.federalregister.gov/documents/2019/07/24/2019-15670/
revision-of-categorical-eligibility-in-the-supplemental-nutrition-
assistance-program-snap
    Regulatory Impact Analysis:
    https://www.regulations.gov/document?D=FNS-2018-0037-0002

    Certainly, when States conduct an actual eligibility 
determination, there is an additional step, and there is some 
required assessment for the States to put them in the program. 
But, again, we believe, per this rule, that it is an important 
step to ensure that individuals are eligible for the program 
benefits that they are receiving, and that is a protection as 
much for the people on the program as it is for the tax dollars 
as well.

                            SNAP ELIGIBILITY

    Ms. Lee. Formerly incarcerated individuals with eligibility 
for SNAP benefits.
    Mr. Lipps. Yes. I am not familiar with the particular 
proposals with which you refer, but the Agency does work with 
States on this. There are some that are working, that have 
received waivers to sign people up for SNAP prior to their 
release from prison to ensure that they have those supports as 
they come out. And we have issued some waivers on that front 
and are generally supportive of those type policies.

               FOOD DISTRIBUTION PROGRAMS ON RESERVATIONS

    Ms. Lee. Thank you, Mr. Chairman. I just want to say a 
couple of words.
    What this witness just said, I don't understand then why, 
by your own analysis, 1 million children are going to lose 
their automatic benefits to free meals based on your 
presentation.
    Thank you very much.
    Mr. Lipps. Sure.
    Mr. Bishop. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. And I am assuming we 
will have an opportunity for two questions, so I will just 
stick to my first one here.
    Taking you back to what happened during the shutdown and 
looking at 2018, the Farm Bill authorized a new program that 
allowed tribal organizations to enter into self-determination 
contracts to oversee food distribution on Indian reservations, 
promoting tribal sovereignty, and helping to meet specific 
tribal and cultural needs.
    The committee included $3 million for this demonstration 
project, and the demonstration project ran into a huge problem 
because you didn't have a program that you would work with the 
Tribes for contingency of a planned shutdown. This left 
families that were already vulnerable to food shortages facing 
additional uncertainty.
    So can you please provide us any update on any 
conversations, consultations that you have had with tribal 
organizations, what USDA has put in progress to implement the 
new demonstration project, in general, but any safeguards you 
would have during a shutdown?
    And, Mr. Chair, I have with me what was submitted to 
another Committee, testimony from Mary Greene Trottier from the 
Spirit Lake Nation, president of the National Association of 
Food Distribution Programs on Indian Reservations (FDPIR).
    Another issue that they had on Tribal reservations were the 
best used-by dates. And when best used-by dates for delivery of 
food that wasn't given to the Tribes wasn't met, the food was 
donated to food shelves rather than the buffalo meat go to the 
Tribes.
    Could you just fill in here what is going on with Tribal 
consultation and how this will never happen again in the 
future?
    Mr. Lipps. Sure. Thank you, Representative. First with 
regard to the shutdown, we all acknowledge that those are very 
difficult times, particularly in programs that ensure that 
individuals have access to food. It wasn't a time that any of 
us enjoyed. You are right about the difficulties that the 
Tribes have raised with the concern over having access to food 
during that time.
    I don't believe that we resulted in any actual issues with 
being able to get food out this round. There was an issue in 
the past that has caused great concern for the Tribes for right 
reasons, and we continue to work with them on that.
    Ms. McCollum. Excuse me, sir. When you said food this 
round, are you talking about the current shutdown--the last 
shutdown?
    Mr. Lipps. Yes, ma'am, during the shutdown.
    Ms. McCollum. There were Federal facilities controlled by 
the USDA that were locked on Tribal reservations and the Tribes 
couldn't even get the food out themselves when they offered to 
remove food from there, and I have this in the testimony. So I 
don't know what you are referring to.
    Mr. Lipps. I am not aware of that issue, Representative. We 
will look into that and get back with you on that answer. I was 
not aware that that became an issue for FDPIR during the most 
recent shutdown, but we will look into that and get back with 
you on an answer on that.
    [The information follows:]

    There are no existing federal facilities controlled by USDA 
on tribal lands. USDA food were available and tribes had the 
ability to order and receive food from USDA during the 
shutdown. USDA does operate two warehouses in the country that 
house and ship food ordered by tribes; both were open during 
the shutdown. We did learn that some tribes were unable to open 
their tribal owned storage and food facilities due to a lack of 
administrative funding. This resulted in tribes' inability to 
pay staff who worked in those facilities.

                 FDPIR--SELF DETERMINATION PILOT

    I will say, with regard to self-determination, which the 
Tribes do believe will help solve this and other issues for 
them, we are excited to work with the Tribes on this self-
determination pilot and to, hopefully, prove successful for 
them on that front. I believe we have had--I have had 
personally seven consultations with the Tribes in my 2 years at 
Food and Nutrition Service, and we are working very hard on 
that relationship to make sure that we understand their needs 
and that we are listening and being attentive to those. Ms. 
Trottier is at most of those consultations, and we have had 
great discussions on that front.
    Unfortunately, we can't take significant action on the 
self-determination project until it is funded, because it was 
authorized and we are prohibited from doing that, but we are 
excited to see that money in the appropriations bill and did 
start discussing that specifically with the Tribes at the last 
consultation.
    Ms. McCollum. Mr. Chair, I have another question, but--I 
have another question but I don't have enough time in this 
round, so I will yield back.

                         PUERTO RICO

    Mr. Bishop. I thank the gentlelady.
    Mr. Lipps, I want to take a moment to focus on Puerto Rico. 
In 2017, in wake of Hurricane Maria, Congress made available an 
additional $1.27 billion in Supplemental Nutrition Assistance 
Program funding for Puerto Rico. Then in June, Congress 
provided another $600 million. Unlike States, Puerto Rico is 
uniquely dependent on Congress for funds in the event of an 
emergency or a natural disaster. Even with these additional 
benefits, Puerto Rican households barely manage to receive 
comparable benefits as compared to the households in the 50 
States.
    Given that fact, the continued recovery from Hurricane 
Maria and the high level of poverty in Puerto Rico, what are 
your specific recommendations for reducing food insecurity in 
Puerto Rico?
    Mr. Lipps. Thanks for that question, Mr. Chairman. We at 
FNS do a lot of work with Puerto Rico on that front. We have 
five staff permanently on the ground in Puerto Rico who work 
with them on a regular occasion, and we provide a lot of 
technical assistance and advice in carrying out the Nutrition 
Assistance Program (NAP), which Congress has funded for them, 
to help ensure that that works, and WIC and our other programs 
that operate across Puerto Rico.
    As you noted, they are not authorized in the SNAP program. 
They have a NAP grant, which operates differently than the SNAP 
program, and so we do everything that we can to help them 
within the confines of what Congress has provided for them.

              FOOD PURCHASE AND DISTRIBUTION PROGRAM

    Mr. Bishop. Okay. Let me switch gears and talk about the 
Food Purchase and Distribution Program. This summer, USDA 
announced the details for a second farmer relief package in 
response to the ongoing trade war. The Market Facilitation 
Program, which accounts for most of the money, is 
understandably getting the most attention. However, the Food 
Purchase and Distribution Program has received $1.4 billion for 
the purchase and distribution of surplus commodities that were 
affected by trade disruptions.
    In fiscal year 2019--while in the fiscal year 2019 bill, in 
response to the first farmer assistance package, which provided 
$1.2 billion for the Food Purchase and Distribution Program, 
Congress provided nearly $110 million for The Emergency Food 
Assistance Program (TEFAP) administration. This included a one-
time $30 million transfer for some unobligated balances to help 
manage all of the product that was being purchased and flowing 
into the food banks. Did FNS utilize all of that $110 million?
    And now that there is a second round, what are the 
resources that are needed for this fiscal year, and what are 
you hearing from the food banks?
    Mr. Lipps. Sure. Thanks for that question, Mr. Chairman. We 
will get back with you on an exact number on that $110 million. 
I expect that we used most, if not all of it, as we were very 
successful in the partnership with food banks and schools and 
Tribes and others on moving out funds--moving out food on that 
first round of the food distribution program related to 
mitigation.
    And as we move into the second round, we have been in 
conversation with food banks about their needs in this round. 
The first round ensured that we had a specific amount of money 
that we said followed the truck to ensure that that money made 
it to the end location for whoever was delivering that food had 
the resources that they need to get it out. We are working with 
food banks to figure out what that right number is and make 
sure that they have the resources to help us deliver that food 
to folks in need.
    [The information follows:]

    As is the case in most years, TEFAP State and local 
agencies used nearly all the TEFAP administrative funding 
provided to them in FY2019. Because the amount of TEFAP 
commodities, including bonus and other commodities, has not 
changed from FY 2019, FNS anticipates a need for a commensurate 
level of TEFAP administrative funding in FY 2020.

                     SCHOOL LUNCH SHAMING

    Mr. Bishop. Okay. As I indicated, Mr. Lipps, in my opening 
statement, I am increasingly alarmed by the reports of schools 
publicly shaming children over their school lunch debt. No 
person, let alone a child, should be subject to that type of 
ridicule and embarrassment.
    What tools does FNS have in place that can be used to 
address this problem, and do you need more authorities from 
Congress?
    Mr. Lipps. Yes, sir, Mr. Chairman. One of the more 
important questions I think that we discussed on this front is 
certainly lunch shaming. Obviously, we all know that the 
overwhelming majority of schools do a great job administering 
the program. There have been too many news stories for sure 
about children who have been the subject of lunch shaming, and 
we need to do all that we can on that front.
    The agency has taken a number of steps over the years to 
work on that and I believe has taken all of the action that we 
feel we can at this point, the most significant being that 
schools have to have a policy for unpaid lunch debt. They have 
to communicate that with their workers and they have to 
communicate that with the parents so that everybody 
understands.
    And there is a prohibition about identifying children in 
the free or reduced-price program. So to the extent that there 
are reduced-price students being identified, there is already a 
prohibition against that.
    But it is an important, difficult subject we talk to 
schools about regularly, and I think it is an important issue 
on which USDA will engage on technical assistance as Congress 
looks at reauthorizing child nutrition.
    Mr. Bishop. Thank you, Mr. Lipps.
    Mr. Fortenberry.

                         FARM TO SCHOOL

    Mr. Fortenberry. Again, thank you, Mr. Chairman.
    Let's return to the Farm to School Program. I would like to 
hear your analysis of the success of the program and any 
challenges that you are facing.
    Again, I think this is exciting at many levels, introducing 
local, nutritious foods into the diets of young people, 
creating that linkage back to farmer to family, rural to urban. 
It has a lot of levels of social meaning beyond just the 
nutritional outcome.
    So talk about the implementation of the program. I have the 
basic statistics, 3.2 million students served, but the 
possibilities for further expansion, as well as any problems 
you are encountering. And let's do that for 1 minute, then I am 
going to turn to a couple of other things.
    Mr. Lipps. Sure. Mr. Fortenberry, it is another wonderful 
thing I get to see out on the road is Farm to School Program. 
And I have seen anecdotally, when you talk to the kids 
participating in those programs, it is inspiring them not only 
to better health as they talk about new fruits and vegetables 
they have tried and those that they now continue to eat.
    Mr. Fortenberry. It is amazing how the nutritionists in 
schools know how to place certain foods that create a, I guess, 
psychological preference. I have learned this too.
    Mr. Lipps. They do a wonderful job, and you can see it at 
really about any of those locations. But also, it inspires in 
those kids, you know, talking to kids who come from low-income 
families about aspirations to be botanists and careers in 
agriculture and different types of things. So there is success 
across with Farm to School. And I think that it is having 
anecdotally a greater effect on schools--on children's healthy 
choices, being able to participate in that than any of the 
programs that we run. So we are very excited about that.
    The additional money that Congress has provided, the $5 
million the last 2 years, has really helped expand that 
program. One request that we do have from the agency and the 
President's budget is that the limit of $100,000 be able to be 
moved up to $500,000. It will allow schools to operate programs 
over--have funds to operate those programs over a longer term 
as they get them established, but also as you look at some of 
your larger school districts, to have projects that can serve--
--
    Mr. Fortenberry. Mr. Chairman, maybe we can make note of 
that. I think that is an important point that was just made, so 
as we work on the next bill. I think that is a good point. 
Thank you.
    Mr. Lipps. Yes, sir.
    Mr. Fortenberry. Secondly, while--let me wrap this up with 
by saying, again, there is a tendency in government to define 
our activities around the lanes in which they have 
traditionally been defined which met a type of need sometime in 
the past. So it is easier to be confined to what is than to 
think about what could be.
    And, again, this alignment of food, nutrition, and health 
is absolutely critical if we are going to take a holistic 
approach to the ecosystem of livability for persons which 
fundamentally centers around health and nutrition, food, as 
well as the possibilities of, in constrained budget times, 
moving across sectors to improve outcomes while reducing costs. 
And, third, resocializing concepts, which used to be the norm; 
again, the farmer connected to the family, the rural urban 
integration which we have lost.
    The next iteration of this--and I will talk to you about it 
some point, Mr. Chairman--is the idea of agricultural programs 
either revitalized or embedded in schools. Why in the world 
botany can't be about growing things at school that then get 
fed to kids. We are exploring this back home. That is mostly 
local issues, but there is a Federal role here as well.

                       DIETARY GUIDELINES

    I am going to divert for a moment to a recent study in the 
Annals of Internal Medicine that says that red meat consumption 
may very well be okay after all. Now, I come from cattle 
country, as you are quite aware, and this is important to us, 
because when we are talking about the multitude of studies and 
information that comes at people, at some point in time one 
thing is bad, then suddenly it is good.
    Now, are you familiar with this study, and will the new 
dietary guidelines look at animal protein consumption as an 
important part of that guideline versus heavy carbohydrates?
    Mr. Lipps. Yes, sir. Again, I appreciate that question. As 
you all know, we are in the middle of the dietary guidelines 
process. The advisory committee is reviewing the evidence now. 
One of the problems that we have with Americans' health is that 
we hear these different headlines all the time. Today something 
is good; tomorrow it is bad. Americans don't know what to do 
with that. The dietary guidelines process should help clear 
that out for everyone, and that is what the process is designed 
to do.
    So they will consider issues such as these as they consider 
the dietary patterns of Americans and what the research shows 
on that front. And all of the evidence that was considered in 
that recent headline is available for consideration per the 
committee. They will set their own protocol for the systematic 
reviews that they will review, but they are not excluding any 
of that evidence.
    Mr. Fortenberry. The same thing could be said for whole 
milk or 2 percent milk, that the rates of obesity took off 
prior to when there were higher levels--I mean--I am sorry--
after there were higher levels of actual high levels of 
consumption of whole milk and 2 percent milk. This is another 
thing that I think that needs to be reexamined that has 
possibly gotten confused over the last few years.
    Mr. Lipps. Yes, sir.
    Mr. Fortenberry. Thank you, Mr. Chair.
    Mr. Bishop. Ms. Pingree.

                    FOOD WASTE IN SCHOOLS

    Ms. Pingree. Thank you very much.
    And I do want to echo the remarks of the ranking member on 
this. I agree on the great value in Farm to School. It is all 
the things you said. Kids benefit from having more interaction 
with local farms. It is good for the rural economy and, 
increasingly, the interest in school gardens, more school food 
preparation that kids are engaged in, education around 
agriculture and gardening; all very good things and I think 
really engage kids in that.
    And I have seen a lot of examples of it visiting school 
lunch programs where kids, you know, think every carrot is the 
one that they grew, think, you know, kale is actually tasty 
now, you know, lots of great things. And I hear it from parents 
too, say, my kids came home and told me about a vegetable we 
don't normally eat. So anyway, I think that is all very good, 
and I encourage even more of it.
    I want to just ask a quick question on food waste 
reduction. I am very interested in that. Something like 30 
percent of the food in this country is wasted. That is an 
environmental issue. It is a huge challenge when so many people 
are going hungry and don't have access to healthy food, and we 
need to do a lot more to fix the problem.
    I am a co-chair of the Food Recovery Caucus with Mr. 
Newhouse, and we have been looking for ways to reduce food 
waste all across the supply chain. I know there have been a lot 
of concerns about food waste in schools, sometimes just because 
kids don't have enough time to eat their meal. Waste audits can 
help schools better understand waste in schools, what is being 
wasted, how much is being wasted, and why. This information can 
be really valuable in changing the behavior or identifying 
opportunities to reduce waste.
    Does FNS provide schools with any resources or technical 
assistance to the schools so that they can conduct waste 
audits?
    Mr. Lipps. Representative, I am not sure we do specifically 
with regard to waste audits, but I know that we give a lot of 
technical assistance on that front. We can get you a list of 
what those things are. And certainly, the Secretary has made 
food waste a priority. We are looking at more opportunities to 
help schools with that now, and I agree with you that it is an 
important issue that we can address together.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T9606A.184
    
    [GRAPHIC] [TIFF OMITTED] T9606A.185
    
    Ms. Pingree. Great. Well, let's be in touch with this. I 
agree that the Secretary has been very supportive on this and 
worked on it and certainly has some, you know, serious goals 
about reducing food waste, but we have to move faster and we 
have to confront it on all fronts. So I hope we can continue to 
discuss that.
    Thank you, Mr. Chair.
    Mr. Bishop. Ms. Lee.

                     SCHOOL LUNCH SHAMING

    Ms. Lee. Thank you, Mr. Chairman.
    Once again, I would like to bring--you raised this in your 
opening statement, the issue around lunch shaming and what is 
taking place right now, because far too many children find 
themselves humiliated and ashamed in classrooms for owing money 
for school lunches. What is worse, many of these children are 
forced to go hungry for unpaid school meals, which is just 
plain wrong.
    Unfortunately--and this is according to the School 
Nutrition Association--it is not an uncommon issue. Three 
quarters of school districts have unpaid meal--student meal 
debt, and we don't even know how many students are being turned 
away because of this very shameful policy.
    Now, in California, just this last Saturday, Governor 
Newsom signed into law a measure banning this practice for all 
K-12 school children. In my own district, where the school meal 
program--and let me remind you that the School Breakfast 
Program was actually started by the Black Panther Party. In my 
district, they have banned this practice for over a decade at 
both Oakland and Berkeley schools.
    So I am wondering what the administration is doing to 
address lunch shaming with the national policy to end it and, 
if so, when you are going to do this and how you are going to 
do it. And also, how we are going to ensure that schools 
communicate to parents and families who have outstanding debt 
that they are not going to be able to--they are not going to 
shame the students and pressure them to collect this debt.
    Mr. Lipps. Sure. Again, Representative Lee, I agree this is 
a very important issue and one that we all need to be working 
carefully on. The agency has--first, let me say statutorily 
that schools may not overtly identify low-income participants 
in the school meals program. So there is a statutory 
requirement on that front.
    With regard to lunch shaming generally, the agency has held 
a number of roundtables and sessions with schools to talk about 
this issue and the complications with which to resolving this 
issue, both with regard to their debt and ensuring that 
children have access to food and that they are not shamed.
    The agency requires that every school district have a 
policy on unpaid school lunch debt and that they communicate 
that policy to all of their workers and to all of their parents 
so that everyone is of the understanding on how these 
communications will happen and that the communication should 
happen with the parents and not with the children. So FNS has 
put that out and is working with States and school districts to 
ensure that it is enforced.
    Ms. Lee. Do you provide oversight for that to make sure 
that it is enforced?
    Mr. Lipps. Yes, ma'am. We check--the States do, but we 
provide oversight to the States to ensure that it is enforced 
with regard to that policy. We believe that that is the extent. 
We continue to work on technical assistance and resources for 
schools on how to deal with these issues but, with that, we 
believe that that is as far as the agency can go, and we do 
stand ready to provide technical assistance to anybody who is 
ready to look at that issue, particularly----
    Ms. Lee. Okay. I would like to follow up with you, because 
I think we need some more sticks on this policy.
    Mr. Lipps. Okay.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T9606A.186
    
    [GRAPHIC] [TIFF OMITTED] T9606A.187
    
                         FOOD BANKS

    Ms. Lee. Let me ask you one more question. With regard to 
just some information I have received from my Alameda County 
Food Bank, which serves my congressional district, they have 
informed me that the shutdown earlier this year has had a long-
lasting impact on hunger. And so I am wondering if USDA has 
done anything to help food banks catch up with this unexpected 
hit on their food supplies, which came right after, of course, 
the holiday season was ending. And are you responding to this 
issue in a way to really try to stop this increase in hunger 
because of the unfortunate decisions that was made--that had 
been made by the President?
    Mr. Lipps. Ms. Lee, again, I would acknowledge that 
shutdowns are difficult in all programs, particularly in those 
that provide food; and there are difficult issues in those that 
are hard for everyone to work through. We worked with all of 
our programs--FDPIR, TEFAP--to do the best we could to ensure 
that food got out to those folks in need. We have worked to 
ensure that food banks are receiving all of their shipments 
that are due to them to make sure they have the food that is 
expected.
    And also, I do think that the food that we have been able 
to provide through the Trade Mitigation Program has been a 
great opportunity for food banks to receive additional support 
to help those in need.
    Ms. Lee. Okay. But I think the issue is the longer-lasting 
impact now on hunger. We are going to have to catch up now, and 
we are going to have to do more to make sure food security 
doesn't become even a larger problem in this country as a 
result directly from the shutdown. So we are going to have to 
come up with new ideas to mitigate against this long term.
    Thank you very much.
    Mr. Bishop. Ms. McCollum.

               SNAP--BROAD-BASED CATEGORICAL ELIGIBILITY

    Ms. McCollum. Thank you.
    I want to go back to the broad-based categorical 
eligibility rule. And I am going to use Minnesota as an example 
so that, you know, we can have it in bite-sized pieces, so to 
speak.
    The flexibility to raise SNAP income guideline from 130 
percent of Federal poverty--and I am going to put it in real 
household numbers--for a family of three, that is $27,000. So 
the Federal poverty guideline of 165, that is for a family of 
three, for a family of three in the Twin Cities, where we are 
having huge problems with people being able to afford housing, 
shelter right now, $34,000.
    So we are not talking about a lot of money for families. So 
these are not wealthy families. And as my colleague from 
California pointed out, sometimes they are already working 
sometimes one or two jobs while they are taking care of their 
children.
    Minnesota adopted this policy for the flexibility to raise 
the SNAP income guidelines in 2010, and it helped streamline 
our State's management for delivery of SNAP. It increased 
access to basic food assistance to low-income families.
    On September 6, a letter from the commissioner of 
Minnesota's Department of Human Services went to the office, 
your office, about this proposed rule. And I read from it, 
quote: Apart from increasing hunger and reducing poverty 
efficiency, this program--proposed rule will leave Minnesota's 
vulnerable during an economic crisis.
    Right now, our economy is good, but it takes away that 
immediate, immediate flexibility for a State to respond when 
there is an economic downturn, whether it is in the State, 
regionally, or nationally. And your mission on your home page 
is, and I quote: Our mission is to increase food security and 
to reduce hunger by providing food to low-income people across 
with access.
    So under this rule, our State has proposed that up to 
350,000 Minnesotans--nearly 70 percent of these people are 
children, seniors, and adults with disabilities--would lose 
their SNAP benefits. So we have done a deep dive into who this 
is going to affect: children, seniors, and adults with 
disabilities.
    And I am going to take the adults with disabilities one 
step farther and then let you respond in general. Under current 
law, in order to receive more than 3 months of SNAP benefits in 
a 3-year time period, a group of adults must either be employed 
or enrolled in efficiently organized employment training for 20 
hours a week. That is current law. Three months of SNAP 
benefits, 3-year time program, you must be employed or 
officially recognized employment for 20 hours.
    States like Minnesota currently have flexibility to waive 
these time limits in certain geographic areas. We have very 
rural parts of the district. We have very dense parts. We have 
labor intensive. We have farming. We have mining. So we have 
very des--you know, disbursed employment. So we like to have 
the flexibility for our State to be resilient in a time of 
process. So your rule would limit the existing criteria for 
granting SNAP waivers, causing many Minnesotans, simply by 
where they live, to be at great risk of losing their SNAP 
benefits.
    So here again, March 29, the commissioner of Minnesota's 
Department of Human Services said that if the State's rule were 
to go into effect, workers, and I quote, would be forced to 
find jobs that are not available to enroll in our employment 
services that simply don't exist.
    So what are you going to do, as you go back and look at 
this for these public comments, for seniors, for children, and 
for people working with disabilities?
    Mr. Lipps. Sure. Representative, first of all, we are going 
to consider all of those comments. We are required to do so and 
will do so, and we will review those comments and respond to 
each of them as we proceed to the final rule.
    With regard to the ABAWD rule, which you mentioned last, 
States will still have flexibility. The rule just ensures that 
States are not exempting counties of 3-1/2 percent unemployment 
from the work requirement that Congress imposed. States also 
retain a 12 percent exemption that they can use for any of 
their population, particularly for those in rural areas or 
particular areas where there may be a pronounced effect that is 
not under a waiver.
    So there is flexibility maintained in that. We are just 
ensuring that the work requirement that Congress put in statute 
is enforced as we move forward.
    And with regard to broad-based categorical eligibility, I 
think that there is an important discussion about what the 
right asset and income standards are. We are ensuring that what 
Congress has provided in statute for the families we serve is 
abided by. And there is an important intersection of other 
Federal programs that work to support those things, and there 
is always a great discussion to be had about how we can better 
support families in those intersections. And certainly, we 
would be willing to provide technical assistance on any of 
those fronts.
    Ms. McCollum. My time has expired. Thank you, Mr. Chair.

                     SUMMER EBT PROGRAM

    Mr. Bishop. Mr. Lipps, it has been almost a decade since 
Congress authorized what has become known as the Summer EBT 
program. The evaluation of this program has been rigorous and 
the findings unambiguous that the results of the Summer EBT 
demonstration are clear that the program is feasible, and the 
impacts on food security and children's nutrition are positive 
and substantial.
    Despite the successful results and the fact that summer 
months can be some of the most uncertain times for children 
that are facing food insecurity, last year, USDA changed this 
approach to focus on new projects that will test, quote, 
innovative strategies. The request for applications also stated 
that the projects will be competitively selected.
    Over the summer, FNS published a blog, by you, detailing a 
collaboration between USDA and Baylor University to demonstrate 
a summer meals project. Will you describe this project in Texas 
and tell us whether it was competitively selected or how the 
funding was approved? And is this an attempt to pilot the 
Harvest Box program which received such strong opposition here 
in this committee and in the authorizing committee?
    Mr. Lipps. Sure. Mr. Chairman, that was not an attempt to 
pilot the Harvest Box program. That was an attempt to solve an 
issue that Congress has asked us to work on in a number of 
appropriations bills and for which we have not found a 
solution, which is rural and frontier hunger in the summer 
meals program.
    That was funded. We funded it under a competitive process. 
I think you all are aware that this program, Summer EBT as it 
has become known, is a demonstration project that has been 
running for a number of years. And we have great data on that--
you are correct--and we reported that back to Congress, and we 
continue to fund those pilots for a number of States, while 
leaving the rest of the States without and without having a 
discussion about that.
    And so we at USDA decided that we should start testing new 
methodologies as we move forward to provide Congress more 
information so we can make a decision--so that Congress can 
make a decision with our technical assistance on how best to 
move forward in solving summer hunger, which we all agree is an 
issue.
    This proposal came to us with an opportunity to provide 
food to those in rural and frontier communities, an opportunity 
to solve that problem. We think that it had an opportunity to 
meet a number of those needs, and we have proceeded forward on 
that front. It is going to have an evaluation run by the Urban 
Institute, that is going tell us how that works. And 
anecdotally, we got very great reviews from the participants in 
the program and the schools that participated in that, a school 
which also runs the summer feeding program, I might add, but 
they note that this is a separate issue that hasn't been solved 
and for which everybody talks about but we haven't seen any 
solutions.
    And so we are excited to see if the data shows what we are 
seeing anecdotally, that this may be an opportunity, not to 
change the summer meals program overall, but particularly for 
those rural and frontier communities where we have been asked 
to work.
    Mr. Bishop. I am going to yield the remainder of my time at 
this point to Mr. Fortenberry, and I will come back after Ms. 
McCollum with one more question.

                     SNAP--IMPROPER PAYMENTS

    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Lipps, let's talk about the--I think it is 6.8 percent 
error rate that has been mentioned in the program, improper 
payment rate, either those receiving too much or those not 
receiving enough.
    So--okay. I am going to make you a deal, and I am sorry Ms. 
Pingree is gone, because I think she would like this. Why don't 
you get that error rate down from seven to five, recognizing 
any program is going to have some error, some slippage? You are 
dealing with States and human contingencies and on and on. You 
get it from seven to five, about a third reduction, and we will 
take that one-third and move it into the Farm to School 
Program, which is about $1.2 billion, by the way. So the total 
error rate problem translates into over $4 billion. So will you 
take that deal?
    Mr. Lipps. I don't have authority to agree to that, Mr. 
Fortenberry, but I like it.
    Mr. Fortenberry. Okay.
    Mr. Lipps. I will say that.
    Mr. Fortenberry. Here is the goal. Obviously, this is a bit 
tongue in cheek, but the goal is to--nobody wants to waste 
money. Nobody wants to see people cheating the system. To the 
degree that we can reduce that error, you actually empower 
other programs that are producing significantly good results, 
Farm to School being one of them.

                     DIETARY GUIDELINES

    Let me turn back, though, to the issue of dietary 
guidelines, which we touched on a moment ago. So these began in 
1980, and there is a correlation to increasing obesity rates 
that began at the same time. Now, there is probably a lot of 
complex variables in there, so you can't blame it exclusively 
on the dietary guidelines. But what type of correlation do you 
see?
    In 1980, we saw obesity at rates of 15 percent and--for 
adults, 5 percent for children. Now it is staggering, 40 
percent for adults and 19 percent for youth. What do you 
attribute that to?
    Mr. Lipps. This is always an important part of the 
discussion with regard to science, Mr. Fortenberry, is 
correlation versus causation, and it is an important issue that 
we have to continue to look at and discuss.
    What you said about dietary guidelines is true. What we 
also know is that most Americans don't abide by the dietary 
guidelines. I think the agency has a lot of work to do on that 
front. We have started some different initiatives called Start 
Simple, just trying to get Americans to do a few things. We 
make them too complex and they ignore them.
    So there is much work to be done across that front. We want 
to make sure that the science is analyzed in an open and 
transparent way and that all science is considered and they are 
making recommendations based on the whole of the science and 
not the headline of the day, which is what we talked about 
earlier. So it is an important issue, and we will continue to 
look at those.
    Mr. Fortenberry. Well, I think it begs the question as to 
how much authority you now have in the space, because you have 
been subsumed into the information age where there is so much 
competing dynamics. Yeah, a new study will come out by a new 
institute almost on a daily basis that says something that 
contradicts prevailing thought processes.
    So how do you reposition yourself in terms of being the 
authoritative guideline and have the humility to be 
continuously self-reflective to make sure that we aren't making 
some error here and that we aren't part of the causation with 
some dietary guideline that is maybe partially misinformed?
    Mr. Lipps. Right. And if, you know, there is a suggestion 
that that is the case, then we should review that carefully. I 
think with regard to people trusting what the government has to 
say in this space, the process has to be open, transparent, 
inclusive, and based on science. And when we set out in this 
process, that is what USDA set out to do. I think that is what 
they set out to do last time. There were a lot of concerns 
about that.
    So we are doing everything we can to increase transparency 
and opportunity for input in the process to make sure that 
everybody cease that sausage as it is made. And one of the 
things that the secretaries--this is not just USDA, it is HHS--
but are committed to, we talked about at the beginning, is that 
if the government is not sure, that we ought not to speak.
    And so we need to make sure that when we are looking at the 
science, that we are speaking on those things of which we have 
great data to show that that may affect health or not, and that 
we are not moving back and forth with the headline of the day 
when the government speaks.
    Mr. Fortenberry. Well, I think it is a good news and bad 
news story. I think there is a growing awareness of this 
problem, again, of food and health relationship. I think there 
is a growing awareness again of the word ``wellness'' has been 
fully incorporated into most vocabularies. People are very much 
aware that the stressful dynamics of our overbusyness and 
scheduling are taking us away from what used to be traditional 
times for meals and socialization around meals, and yet at the 
same time, interestingly, the market dynamics that drove that 
problem are driving it back, as people are looking for, again, 
places that serve quality fresh food, particularly in 
restaurants, at affordable prices. But this is changing in 
terms of the grocery dynamics as well.
    So there is some good news on this front, but I am fearful 
that, again, the government has lost a certain amount of 
authority in this regard that, again, the dynamics of too much 
information being out there confuse it, combined with the 
modern life, has put increasing pressure on people and is 
resulting in this health decline.
    So I know it is a considered part of your agency to look at 
this, but I do worry that in the midst of all of this chaos and 
turmoil and information overflow, you have lost authority in 
this regard.
    Mr. Lipps. I think you are right to have some concern on 
that front. Again, we want to make sure that folks know what is 
happening in the process, and then we have got to talk about 
how we talk to people about that.
    Mr. Fortenberry. Yeah. Yes.
    Mr. Lipps. It is the same as Farm to School.
    Mr. Fortenberry. Yes.
    Mr. Lipps. You, know, anecdotally, we can change kids by 
participating them in the process.
    Mr. Fortenberry. Thank you, Mr. Lipps.
    I yield back, Mr. Chairman.
    Mr. Bishop. Ms. McCollum.

                   CHILD NUTRITION AND HUNGER

    Ms. McCollum. Thank you. And thank you for bringing up the 
summer challenge that children have with nutrition, Mr. Chair.
    I want to take this a step farther. We have weekends 
sometimes where we know children are facing food insecurity. We 
have 3-day, 4-day weekends. Then we have winter break, we have 
spring break, and then we have the summer.
    I have had the opportunity to go out and be at some of the 
schools that are doing some of the feeding programs, but those 
are for children sometimes who can find a way to get to the 
summer school program to even participate, because there is 
lack of transportation and families being able to get their 
children there and then work out the flexibility of daycare for 
the rest of the day. And the amount of food that is served is 
limited as to what the school is going to be able to prepare 
because they are running on a skeleton staff.
    What are the real discussions that are taking place behind 
the scenes over in the Department? Is this just like, well, if 
the kids are in school, are we going to do this? Or are we 
really having a conversation, a serious conversation, about the 
lack of nutrition that these children are basically going 
without, which means they will eat something that will fill 
them? And I am not going to mention any brand names and get 
somebody in trouble. But, you know, drinking something, eating 
something that many people would call junk food becomes 
something that is just filling and gets them through the day.
    What is really happening? Because our school districts, we 
can't put this all on the schools, and that is what is 
happening. Our schools are being tasked to do more and more and 
criticized for not delivering, you know, a utopia. What are we 
doing? What is the USDA doing to really address childhood 
nutrition and hunger in this country?
    Mr. Lipps. Sure. Representative, you know, this is one of 
the more complicated issues that deserves a lot of discussion 
as Child Nutrition Reauthorization comes forward. As you know, 
that expired in 2016, and it is one of the pivotal issues that 
need to be looked at. There are a number of programs out there 
to serve children, certainly the school meals programs. Child 
and Adult Food Program operates after school, sometimes summer 
programs or summer feeding. We don't have authority to run 
weekend programs.
    So you may know, a lot of nonprofit volunteers, food banks, 
et cetera, are running backpack programs on weekends, those 
types of things. We have authority to run holidays but not back 
ends--sorry--weekends or these breaks. And so that is a very 
important issue.
    And you know, as I do, you talk to teachers, and they talk 
about kids coming back on Monday, having had that gap in the 
middle. It is an important issue. We don't have authority to 
solve that issue at USDA, but as we are looking at how we 
provide food across these fronts, I think it is extremely 
important.
    And as I talked about, you know, we continue to test these 
methodologies on how to get food to the kids. The congregate 
sites work very well in some places. I have seen them work very 
well citywide. They run busses in the summer to get all the 
kids there, but you get outside those city limits and those 
kids don't have access and the parents can't get them there.
    So we are continuing to innovate on that front to provide 
information to Congress as they consider that, but certainly, 
hunger outside of school is an issue that is complicated to 
solve and one we need to continue to engage in.
    Ms. McCollum. Thank you, Mr. Chair.

              SNAP--STATE CERTIFICATION PRIVATIZATION

    Mr. Bishop. Thank you.
    Mr. Lipps, yesterday, we received notification that FNS 
approved a demonstration waiver for the Kentucky Department for 
Community Based Services. The waiver allows for the 
privatization of core SNAP functions that are currently 
administered by civil servants. I think it will come as a shock 
to some of my colleagues that vital responsibilities, such as 
conducting SNAP eligibility interviews, application assistance, 
and application submission, will be contracted out to private 
for-profit companies.
    Understand this waiver is limited to just one county, but 
we already have examples from Texas and Indiana where the 
privatization of these services ultimately hurt people and 
households that were seeking SNAP. In Texas, for example, 
applicants waited longer than the required 30-day eligibility 
determination. In both cases, it is my understanding that the 
States ultimately stopped these experiments.
    Shifting services from public to private contractors shifts 
the incentives and it eliminates program expertise. Now, the 
Kentucky Department for Community Based Services requested the 
waiver in part to improve customer service.
    Is that a failure on the part of the Food and Nutrition 
Service? What can FNS do to help State agencies improve the 
customer service so that they don't have to resort to this 
extreme remedy of contracting out? And can this be terminated 
before 24 months if it is not working appropriately?
    Mr. Lipps. Mr. Chairman, we are working to ensure that we 
have all appropriate oversight measures in place to ensure that 
this is working. Certainly, if it is showing a negative effect 
on recipients an earlier time, we will do everything necessary 
to ensure that the recipients are protected and receive their 
benefits moving forward.
    What Kentucky is asking to do are things that Congress has 
allowed them to do in many of the other low-income programs. 
And I hear continually when I am out, from various different 
States, about the difficulty in trying to administer these 
programs when they are allowed to use one type of contractor in 
one situation and not in another. And some of that is on 
situations as simple as a SNAP recipient calling into a State 
call center and not being able to get basic information on 
their SNAP case or the status of their application. So that is 
step 1 of that.
    This waiver does allow Kentucky to go a little bit further 
with that same staff conducting the interview on SNAP that they 
are conducting across other programs. A similar type of waiver 
has been operated in four other States for quite sometime 
successfully. With non-profits--you note that this is a for-
profit. States--this State, Kentucky believes that they can 
provide better service to the recipient on this front. It has 
been a long time since some other States failed on similar but 
different measures, and we think it is important that States 
have the opportunity to see if they can serve recipients 
better.
    The waiver is limited to one county. FNS is providing 
extensive technical assistance and oversight on this and has 
two on-the-ground visits planned as soon as the pilot launches, 
and we will keep you all advised on those.
    Mr. Bishop. Thank you, Mr. Lipps.
    Okay. Thank you so much for being here today. The Food and 
Nutrition Service has an enormous responsibility for 
administering our Nation's nutrition programs. I appreciate 
your taking time to hear our concerns and to answer our 
questions. We will forward any additional questions that we may 
have for the record, and we appreciate your diligence in 
getting responses to us in a timely manner.
    Again, thank you for continuing to work with us, and we 
look forward to continuing your mission in providing safe and 
nutritious food to the American people.
    With that, the subcommittee is adjourned.
    Mr. Lipps. Thank you, Mr. Chairman.
    [Questions and answers submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T9606A.188
    
    [GRAPHIC] [TIFF OMITTED] T9606A.189
    
    [GRAPHIC] [TIFF OMITTED] T9606A.190
    
    [GRAPHIC] [TIFF OMITTED] T9606A.191
    
    [GRAPHIC] [TIFF OMITTED] T9606A.192
    
    [GRAPHIC] [TIFF OMITTED] T9606A.193
    
    [GRAPHIC] [TIFF OMITTED] T9606A.194
    
    [GRAPHIC] [TIFF OMITTED] T9606A.195
    
    [GRAPHIC] [TIFF OMITTED] T9606A.196
    
    [GRAPHIC] [TIFF OMITTED] T9606A.197
    
    [GRAPHIC] [TIFF OMITTED] T9606A.198
    
    [GRAPHIC] [TIFF OMITTED] T9606A.199
    
    [GRAPHIC] [TIFF OMITTED] T9606A.200
    
    [GRAPHIC] [TIFF OMITTED] T9606A.201
    
    [GRAPHIC] [TIFF OMITTED] T9606A.202
    
    [GRAPHIC] [TIFF OMITTED] T9606A.203
    
    [GRAPHIC] [TIFF OMITTED] T9606A.204
    
    [GRAPHIC] [TIFF OMITTED] T9606A.205
    
    [GRAPHIC] [TIFF OMITTED] T9606A.206
    
    [GRAPHIC] [TIFF OMITTED] T9606A.207
    
    [GRAPHIC] [TIFF OMITTED] T9606A.208
    
    [GRAPHIC] [TIFF OMITTED] T9606A.209
    
    [GRAPHIC] [TIFF OMITTED] T9606A.210
    
    [GRAPHIC] [TIFF OMITTED] T9606A.211
    
    [GRAPHIC] [TIFF OMITTED] T9606A.212
    
    [GRAPHIC] [TIFF OMITTED] T9606A.213
    
    [GRAPHIC] [TIFF OMITTED] T9606A.214
    
    [GRAPHIC] [TIFF OMITTED] T9606A.215
    
    [GRAPHIC] [TIFF OMITTED] T9606A.216
    
    [GRAPHIC] [TIFF OMITTED] T9606A.217
    
    [GRAPHIC] [TIFF OMITTED] T9606A.218
    
    [GRAPHIC] [TIFF OMITTED] T9606A.219
    
    [GRAPHIC] [TIFF OMITTED] T9606A.220
    
    [GRAPHIC] [TIFF OMITTED] T9606A.221
    
    [GRAPHIC] [TIFF OMITTED] T9606A.222
    
    [GRAPHIC] [TIFF OMITTED] T9606A.223
    
    [GRAPHIC] [TIFF OMITTED] T9606A.224
    
    [GRAPHIC] [TIFF OMITTED] T9606A.225
    
    [GRAPHIC] [TIFF OMITTED] T9606A.226
    
    [GRAPHIC] [TIFF OMITTED] T9606A.227
    
    [GRAPHIC] [TIFF OMITTED] T9606A.228
    
    [GRAPHIC] [TIFF OMITTED] T9606A.229
    
    [GRAPHIC] [TIFF OMITTED] T9606A.230
    
    [GRAPHIC] [TIFF OMITTED] T9606A.231
    
    [GRAPHIC] [TIFF OMITTED] T9606A.232
    
    [GRAPHIC] [TIFF OMITTED] T9606A.233
    
    [GRAPHIC] [TIFF OMITTED] T9606A.234
    
    [GRAPHIC] [TIFF OMITTED] T9606A.235
    
    [GRAPHIC] [TIFF OMITTED] T9606A.236
    
    [GRAPHIC] [TIFF OMITTED] T9606A.237
    
    [GRAPHIC] [TIFF OMITTED] T9606A.238
    
    [GRAPHIC] [TIFF OMITTED] T9606A.239
    
    [GRAPHIC] [TIFF OMITTED] T9606A.240
    
    [GRAPHIC] [TIFF OMITTED] T9606A.241
    
    [GRAPHIC] [TIFF OMITTED] T9606A.242
    
    [GRAPHIC] [TIFF OMITTED] T9606A.243
    
    [GRAPHIC] [TIFF OMITTED] T9606A.244
    
    [GRAPHIC] [TIFF OMITTED] T9606A.245
    
    [GRAPHIC] [TIFF OMITTED] T9606A.246
    
    [GRAPHIC] [TIFF OMITTED] T9606A.247
    
    [GRAPHIC] [TIFF OMITTED] T9606A.248
    
    [GRAPHIC] [TIFF OMITTED] T9606A.249
    
    [GRAPHIC] [TIFF OMITTED] T9606A.250
    
    [GRAPHIC] [TIFF OMITTED] T9606A.251
    
    [GRAPHIC] [TIFF OMITTED] T9606A.252
    
    [GRAPHIC] [TIFF OMITTED] T9606A.253
    
    [GRAPHIC] [TIFF OMITTED] T9606A.254
    
    [GRAPHIC] [TIFF OMITTED] T9606A.255
    
    [GRAPHIC] [TIFF OMITTED] T9606A.256
    
    [GRAPHIC] [TIFF OMITTED] T9606A.257
    
    [GRAPHIC] [TIFF OMITTED] T9606A.258
    
    [GRAPHIC] [TIFF OMITTED] T9606A.259
    
    [GRAPHIC] [TIFF OMITTED] T9606A.260
    
    [GRAPHIC] [TIFF OMITTED] T9606A.261
    
    [GRAPHIC] [TIFF OMITTED] T9606A.262
    
    [GRAPHIC] [TIFF OMITTED] T9606A.263
    
    [GRAPHIC] [TIFF OMITTED] T9606A.264
    
    [GRAPHIC] [TIFF OMITTED] T9606A.265
    
    [GRAPHIC] [TIFF OMITTED] T9606A.266
    
    [GRAPHIC] [TIFF OMITTED] T9606A.267
    
    [GRAPHIC] [TIFF OMITTED] T9606A.268
    
    [GRAPHIC] [TIFF OMITTED] T9606A.269
    
    [GRAPHIC] [TIFF OMITTED] T9606A.270
    
    [GRAPHIC] [TIFF OMITTED] T9606A.271
    
    [GRAPHIC] [TIFF OMITTED] T9606A.272
    
    [GRAPHIC] [TIFF OMITTED] T9606A.273
    
    [GRAPHIC] [TIFF OMITTED] T9606A.274
    
    [GRAPHIC] [TIFF OMITTED] T9606A.275
    
    [GRAPHIC] [TIFF OMITTED] T9606A.276
    
    [GRAPHIC] [TIFF OMITTED] T9606A.277
    
    [GRAPHIC] [TIFF OMITTED] T9606A.278
    
    [GRAPHIC] [TIFF OMITTED] T9606A.279
    
    [GRAPHIC] [TIFF OMITTED] T9606A.280
    
    [GRAPHIC] [TIFF OMITTED] T9606A.281
    
    [GRAPHIC] [TIFF OMITTED] T9606A.282
    
    [GRAPHIC] [TIFF OMITTED] T9606A.283
    
    [GRAPHIC] [TIFF OMITTED] T9606A.284
    
    [GRAPHIC] [TIFF OMITTED] T9606A.285
    
    [GRAPHIC] [TIFF OMITTED] T9606A.286
    
    [GRAPHIC] [TIFF OMITTED] T9606A.287
    
    [GRAPHIC] [TIFF OMITTED] T9606A.288
    
    [GRAPHIC] [TIFF OMITTED] T9606A.289
    
    [GRAPHIC] [TIFF OMITTED] T9606A.290
    
    [GRAPHIC] [TIFF OMITTED] T9606A.291
    
    [GRAPHIC] [TIFF OMITTED] T9606A.292
    
    [GRAPHIC] [TIFF OMITTED] T9606A.293
    
    [GRAPHIC] [TIFF OMITTED] T9606A.294
    
    [GRAPHIC] [TIFF OMITTED] T9606A.295
    
    [GRAPHIC] [TIFF OMITTED] T9606A.296
    
    [GRAPHIC] [TIFF OMITTED] T9606A.297
    
    [GRAPHIC] [TIFF OMITTED] T9606A.298
    
    [GRAPHIC] [TIFF OMITTED] T9606A.299
    
    [GRAPHIC] [TIFF OMITTED] T9606A.300
    
    [GRAPHIC] [TIFF OMITTED] T9606A.301
    
    [GRAPHIC] [TIFF OMITTED] T9606A.302
    
    [GRAPHIC] [TIFF OMITTED] T9606A.303
    
    [GRAPHIC] [TIFF OMITTED] T9606A.304
    
    [GRAPHIC] [TIFF OMITTED] T9606A.305
    
    [GRAPHIC] [TIFF OMITTED] T9606A.306
    
    [GRAPHIC] [TIFF OMITTED] T9606A.307
    
    [GRAPHIC] [TIFF OMITTED] T9606A.308
    
    [GRAPHIC] [TIFF OMITTED] T9606A.309
    
    [GRAPHIC] [TIFF OMITTED] T9606A.310
    
    [GRAPHIC] [TIFF OMITTED] T9606A.311
    
    [GRAPHIC] [TIFF OMITTED] T9606A.312
    
    [GRAPHIC] [TIFF OMITTED] T9606A.313
    
    [GRAPHIC] [TIFF OMITTED] T9606A.314
    
    [GRAPHIC] [TIFF OMITTED] T9606A.315
    
    [GRAPHIC] [TIFF OMITTED] T9606A.316
    
    [GRAPHIC] [TIFF OMITTED] T9606A.317
    
    [GRAPHIC] [TIFF OMITTED] T9606A.318
    
    [GRAPHIC] [TIFF OMITTED] T9606A.319
    
    [GRAPHIC] [TIFF OMITTED] T9606A.320
    
    [GRAPHIC] [TIFF OMITTED] T9606A.321
    
    [GRAPHIC] [TIFF OMITTED] T9606A.322
    
    [GRAPHIC] [TIFF OMITTED] T9606A.323
    
    [GRAPHIC] [TIFF OMITTED] T9606A.324
    
    [GRAPHIC] [TIFF OMITTED] T9606A.325
    
    [GRAPHIC] [TIFF OMITTED] T9606A.326
    
    [GRAPHIC] [TIFF OMITTED] T9606A.327
    
    [GRAPHIC] [TIFF OMITTED] T9606A.328
    
    [GRAPHIC] [TIFF OMITTED] T9606A.329
    
    [GRAPHIC] [TIFF OMITTED] T9606A.330
    
    [GRAPHIC] [TIFF OMITTED] T9606A.331
    
    [GRAPHIC] [TIFF OMITTED] T9606A.332
    
    [GRAPHIC] [TIFF OMITTED] T9606A.333
    
    [GRAPHIC] [TIFF OMITTED] T9606A.334
    
    [GRAPHIC] [TIFF OMITTED] T9606A.335
    
    [GRAPHIC] [TIFF OMITTED] T9606A.336
    
    [GRAPHIC] [TIFF OMITTED] T9606A.337
    
    [GRAPHIC] [TIFF OMITTED] T9606A.338
    
    [GRAPHIC] [TIFF OMITTED] T9606A.339
    
    [GRAPHIC] [TIFF OMITTED] T9606A.340
    
    [GRAPHIC] [TIFF OMITTED] T9606A.341
    
    [GRAPHIC] [TIFF OMITTED] T9606A.342
    
    [GRAPHIC] [TIFF OMITTED] T9606A.343
    
    [GRAPHIC] [TIFF OMITTED] T9606A.344
    
    [GRAPHIC] [TIFF OMITTED] T9606A.345
    
    [GRAPHIC] [TIFF OMITTED] T9606A.346
    
    [GRAPHIC] [TIFF OMITTED] T9606A.347
    
    [GRAPHIC] [TIFF OMITTED] T9606A.348
    
    [GRAPHIC] [TIFF OMITTED] T9606A.349
    
    [GRAPHIC] [TIFF OMITTED] T9606A.350
    
    [GRAPHIC] [TIFF OMITTED] T9606A.351
    
    [GRAPHIC] [TIFF OMITTED] T9606A.352
    
    [GRAPHIC] [TIFF OMITTED] T9606A.353
    
    [GRAPHIC] [TIFF OMITTED] T9606A.354
    
    [GRAPHIC] [TIFF OMITTED] T9606A.355
    
    [GRAPHIC] [TIFF OMITTED] T9606A.356
    
    [GRAPHIC] [TIFF OMITTED] T9606A.357
    
    [GRAPHIC] [TIFF OMITTED] T9606A.358
    
    [GRAPHIC] [TIFF OMITTED] T9606A.359
    
    [GRAPHIC] [TIFF OMITTED] T9606A.360
    
    [GRAPHIC] [TIFF OMITTED] T9606A.361
    
    [GRAPHIC] [TIFF OMITTED] T9606A.362
    
    [GRAPHIC] [TIFF OMITTED] T9606P3.001
    

                        [all]
</pre></body></html>
